<html>
<title> - CONFRONTING THE TERRORIST THREAT TO THE HOMELAND: SIX YEARS AFTER 9/11</title>
<body><pre>[Senate Hearing 110-893]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-893
 
 CONFRONTING THE TERRORIST THREAT TO THE HOMELAND: SIX YEARS AFTER 9/11

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
38-842                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
            Christian J. Beckner, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Leah Q. Nash, Minority GAO Detailee
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Tester...............................................    23
    Senator Warner...............................................    25
    Senator Coleman..............................................    27
    Senator Voinovich............................................    30
    Senator Sununu...............................................    32
    Senator McCaskill............................................    37
    Senator Stevens..............................................    42
    Senator Akaka................................................    43
    Senator Carper...............................................    44

                               WITNESSES
                       Monday, September 10, 2007

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security.......................................................     5
Hon. J. Michael McConnell, Vice Admiral, U.S. Navy (Ret.), 
  Director of National Intelligence..............................    10
Hon. John Scott Redd, Vice Admiral, U.S. Navy (Ret.), Director, 
  National Counterterrorism Center, Office of the Director of 
  National Intelligence..........................................    14
Hon. Robert S. Mueller III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................    17

                     Alphabetical List of Witnesses

Chertoff, Hon. Michael:
    Testimony....................................................     5
    Prepared statement...........................................    59
McConnell, Hon. J. Michael:
    Testimony....................................................    10
    Prepared statement...........................................    73
Mueller, Hon. Robert S. III:
    Testimony....................................................    17
    Prepared statement...........................................   106
Redd, Hon. John Scott:
    Testimony....................................................    14
    Prepared statement...........................................    93

                                APPENDIX

Questions and responses for the record from:
    Secretary Chertoff...........................................   115
    Admiral McConnell............................................   137
    Admiral Redd.................................................   151
    Mr. Mueller..................................................   155


 CONFRONTING THE TERRORIST THREAT TO THE HOMELAND: SIX YEARS AFTER 9/11

                              ----------                              


                       MONDAY, SEPTEMBER 10, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, 
McCaskill, Tester, Collins, Stevens, Voinovich, Coleman, 
Warner, and Sununu.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
everyone who is here, including, of course, our four witnesses.
    Tomorrow--September 11, 2007--people across our Nation, 
and, in fact, in many places around the world, will pause to 
mourn and reflect on the terrorist attacks of September 11, 
2001.
    Today in this Committee room, we rededicate ourselves to 
the memories of those lost--the families and the Nation that 
grieve for them. Today we take time to assess the continuing 
Islamist terrorist threat to America and what our government is 
doing to protect the American people from an attack like the 
one that occurred 6 years ago.
    Today we ask: What lessons were learned? Where do we stand 
in our ability to detect and deter the next attack that we know 
is being plotted? And is our government ready to respond 
effectively to mitigate the damage to our citizens and our way 
of life should another terrorist attack be carried out?
    The ``National Intelligence Estimate: The Terrorist Threat 
to the US Homeland,'' which was issued in July 2007, makes the 
continuing dangers clear. ``We assess that al-Qaeda's Homeland 
plotting is likely to continue to focus on prominent political, 
economic, and infrastructure targets with the goal of producing 
mass casualties, visually dramatic destruction, significant 
economic aftershocks, and/or fear among the US population.''
    While the core of the September 11, 2001, al-Qaeda is 
weaker and no longer operates under the cover of the Taliban 
government of Afghanistan--and its forces in Iraq are now on 
the run--it is clear that the leadership of al-Qaeda has 
regenerated itself and its hateful ideology is metastasizing 
across the Internet.
    In his tape posted over the weekend, Osama bin Laden may 
sound like a rambling political candidate of the Internet 
fringe, railing against American business, coming out for lower 
taxes, expressing concern about high mortgage interest rates, 
and then ultimately making clear that mass conversion to Islam 
is the best way for Americans to secure our future. Taken by 
itself, this statement might seem like the ranting of a weird 
but harmless person. But the fact is Osama bin Laden is a mass 
murderer who has the blood of tens of thousands of people on 
his hands. And I am speaking not just of the more than 3,000 
Americans who died on September 11, 2001, or in other 
terrorists attacks against the West, but also in the murder of 
thousands and thousands of his fellow Muslims--men, women and 
children--innocents upon whom al-Qaeda has rained 
indiscriminate death in Iraq, Afghanistan, and throughout the 
world.
    Bin Laden's tape is another shot across our bow. It is the 
sound of another alarm which calls us to alertness and duty and 
tells us that bin Laden and his ilk are out there, and so long 
as they are, the life of every American is endangered.
    Consider the most recent plot broken up in Germany--with, I 
might say proudly, the help of American intelligence 
operatives. This plot, which German officials have said was 
professionally organized mostly by native Germans who were 
radicalized in Germany, was nonetheless carried out by these 
people after they traveled to al-Qaeda camps in Waziristan for 
training.
    And then remember the actual and foiled attacks that 
originated in England, Scotland, Spain, Algeria, Denmark, and 
so many other places--all also locally plotted, some aimed at 
America and/or American targets.
    And then come home and focus on the Fort Dix and JFK 
Airport plots, which demonstrated beyond any doubt that there 
are people right here in America who have swallowed the 
jihadist ideology and are prepared to kill innocent Americans. 
These are the evils and dangers of our age that we must live 
with and defend against.
    Today, we are most grateful to have as witnesses the four 
men who are responsible for the protection of the American 
people from Islamist terrorism. As I look at the four of you, 
it is striking to me that three of you lead Federal departments 
or offices that did not exist on September 11, 2001, and were 
created in legislation that in part was initiated in this 
Committee, passed by Congress with the support of Members of 
both parties, and signed by the President, all of which have 
been aimed at providing better protection to the American 
people than they were getting from their government on this day 
6 years ago.
    Let me say clearly that the agencies you four administer, 
the Federal employees that you lead, and the work that you have 
done together have made our country a lot safer than it was on 
September 11, 2001. And, in fairness, though they are not here, 
of course, I would add the Department of Defense and the 
Department of State and all who work for them.
    There is undoubtedly some luck in the fact that America--
contrary to all expectations on September 11, 2001--has not 
suffered another terrorist attack in the last 6 years. But it 
is no mere accident and not just luck. It is in good measure, I 
believe, because of the smart, hard work that you and your 
agencies have done that we have not been attacked again here at 
home.
    I say this with gratitude, but with no sense of comfort or 
triumph. You and I know there is more your agencies must do--
and do better--and that the enemy remains strong, agile, and 
eager to attack us again. But on the eve of the sixth 
anniversary of one of the darkest days in American history, 
September 11, 2001, it is appropriate that we stop and thank 
you and your co-workers for all that you have done in the last 
6 years to protect us and our homeland.
    When we created the Department of Homeland Security, the 
Director of National Intelligence, the National 
Counterterrorism Center, and supported Director Mueller's 
transformation of the FBI, no one intended them to be static 
offices or organizations. We wanted them to be not just strong 
and capable, but as agile, flexible, and fast-moving as our 
enemies.
    We are still in the early days of what will be a long war 
against Islamist extremists. Today we want to consider what we 
have done and still must do together to secure our homeland and 
win this war.
    I thank you for being here, and I look forward to your 
testimony.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Tomorrow is the anniversary of a day that, 6 years later, 
still defies understanding. The loss of nearly 3,000 innocent 
men, women, and children, the cruelty of the attackers, and the 
courage at the Twin Towers, the Pentagon, and on Flight 93 
remain beyond the ability of our minds to comprehend fully or 
our words to express adequately.
    It is appropriate that we are holding this hearing today, 
the eve of this somber day of remembrance. If there is one 
thing we fully understand about September 11, 2001, it is that 
the horror of that day was made possible by what has been 
called ``September 10th thinking.'' What the 9/11 Commission so 
memorably terms as ``a failure of imagination'' was exploited 
by our enemies with devastating effectiveness.
    Events in my home State of Maine on September 10, 2001, 
illustrate the collision course between innocence and hatred.
    On that day, Robert and Jackie Norton drove from their home 
in Lubec, Maine, to Bangor, the first leg of a cross-country 
trip to the West Coast for a family wedding. Early the next 
morning, a commuter plane would take the beloved retired couple 
to Boston, where they would board Flight 11.
    On that day, James Roux of Portland, an Army veteran, a 
devoted father, and a man known for his generosity and outgoing 
spirit, was packing for a business trip to California. He left 
Logan the next morning on Flight 175.
    On that day, Robert Schlegel of Gray, Maine, was 
celebrating his recent promotion to the rank of Commander in 
the U.S. Navy. He was settling into his new office at the 
Pentagon. His office was believed to be the point of impact for 
Flight 77.
    And on that day, Mohamed Atta and his fellow terrorist 
rented a car in Boston and drove to Portland. They checked into 
a motel, ate pizza, and made other preparations. When they 
boarded their commuter plane for Logan the next morning to 
seize control of Flight 11, they left behind a trail of dots--
of financing and training, of global travel and visa 
violations, and of known terrorism involvement--that would not 
be connected until it was far too late. Complacency, turf 
battles, and intelligence failures prevented the coordination 
and communication that just might have allowed the September 
11, 2001 plot to be detected in time.
    Nevertheless, the people of our great country responded to 
those attacks with determination, unity, and a sense of 
purpose. My concern is that our response may be in danger of 
flagging. If we allow ourselves to become complacent, to revert 
to September 10th thinking, the next attack will not be due to 
a failure of imagination but to a failure of resolve.
    Today's hearing is held in the context of the ``National 
Intelligence Estimate: The Terrorist Threat to the US 
Homeland'' report. This report judged that the United States 
will face ``a persistent and evolving terrorist threat over the 
next three years.''
    The key words are ``persistent'' and ``evolving.'' This 
Committee has dedicated itself to anticipating the changing 
nature of terrorism and to addressing our vulnerabilities. One 
of our concerns is a central issue raised in the National 
Intelligence Estimates (NIEs).
    That issue is homegrown terrorism. The NIE assessment is 
that a growing number of radical, self-generating terror cells 
in Western countries indicates that the radical and violent 
segment of the West's population is expanding. In our own 
country, as the Chairman indicated, the Torrance, California, 
case and the Fort Dix and JFK Airport plots all illustrate that 
we are not immune from domestic terror cells. Those homegrown 
terrorists, inspired by al-Qaeda's hate-filled perversion of 
the Muslim faith, will challenge the ability of our law 
enforcement and intelligence agencies to respond effectively. 
And they pose a challenge to all Americans to be observant and 
to not be afraid to report what they see.
    This Committee has conducted extensive investigations of 
this phenomenon, in particular, the radicalization of prison 
inmates, the use of the Internet as a radicalizing influence, 
and the lessons learned by our European allies who also face 
this threat. I am very interested in discussing with our 
witnesses today how we can best counter this clear and 
escalating threat.
    The NIE also states that al-Qaeda remains driven by an 
undiminished intent to attack and continues to adapt and 
improve its capabilities. Even more disturbing is what the 
report further concludes: That although worldwide 
counterterrorism efforts have constrained the ability of al-
Qaeda to attack us again, the level of international 
cooperation may wane as September 11, 2001 becomes a more 
distant memory and perceptions of the threat diverge.
    In other words, we are challenged not just by a ruthless, 
calculating, and determined enemy, but also by our own resolve. 
The names of Robert and Jackie Norton, of James Roux, of 
Commander Schlegel, and of so many others must not become 
distant memories. They must always remain a vivid reminder of 
the terrible price that was paid for September 10th thinking. 
The threat that was so fully and terribly revealed on September 
11, 2001, is not a matter of divergent perceptions. It is a 
persistent and evolving reality that we must continue to 
confront.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that statement.
    We will now go to the witnesses. Generally speaking, 
gentlemen, as you know, we asked you to speak to us this 
morning about your evaluation of the current threat environment 
and your own self-evaluation of the status of reform at the 
agencies that you lead. Obviously, we would welcome anything 
else you want to say this morning.
    We will begin with Secretary Chertoff.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Well, thank you, Mr. Chairman, and 
thank you, Senator Collins, and Members of the Committee. It is 
a pleasure to appear before you again today as we approach the 
sixth anniversary of that terrible day. And it is also an 
appropriate time to recommit ourselves and reaffirm our 
determination to continue to build on the progress that this 
Committee made possible through its earlier rounds of 
legislation and that all of us have been working very hard over 
the past 6 years to address.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    I would like to recognize, first of all, my colleagues at 
the table: Director McConnell, Director Mueller, and Admiral 
Redd. All of us meet together frequently. We confer frequently, 
and we all share with others--and, of course, ultimately the 
President--the responsibility to protect the American people 
and, in the words the President has used, ``not to let this 
happen again.'' All of us recognize that this is a daunting 
challenge and one that requires a partnership with State and 
local officials, with the private sector, and with our 
international partners.
     I would also like to take this moment to thank this 
Committee which has really led the charge to build the 
institutions that can adapt to 21st Century challenges such as 
those posed by this war currently being waged by Islamist 
extremists. And once again, as bin Laden's tape disclosed over 
the weekend indicates, for our enemies this war is very much a 
current concern and very much in the forefront of their minds. 
It must remain in the forefront of our mind.
    Finally, of course, I have to express my gratitude not only 
to the 208,000 men and women who work with me at the Department 
of Homeland Security protecting our borders, our sea lanes, our 
infrastructure, and our airways, but also my colleagues all 
across the government in all of the agencies represented here 
and others who work very hard 24/7 to protect the American 
people.
    Over the last 6 years, we have made some tremendous strides 
in making this country safer, and in answer to the question I 
often get asked, it is clear to me that we are much safer than 
we were prior to September 11, 2001. It is also clear to me 
that we have more work to be done because, as you said, Mr. 
Chairman, the enemy is not standing still. They are constantly 
revising their tactics and adapting their strategy and their 
capabilities. And if we stand still or, worse yet, if we 
retreat, we are going to be handing them an advantage that we 
dare not see them hold.
    The fact that we have not suffered another terrorist attack 
on our soil in the last 6 years does say something about the 
success of our efforts so far. Now, some people do say it is 
just because we are plain lucky. I do not believe ``luck'' is 
an adequate explanation for this. Others may contend that the 
terrorist threat has subsided or that the United States is no 
longer in danger, or maybe that the terrorists have lost 
interest. But, again, I would just commend the videotape we saw 
over the weekend as a refutation of that. I commend to you the 
arrests that we saw in Germany and Denmark. The enemy is very 
focused on continuing to wage this war. They have not lost 
interest, and if we allow ourselves to become complacent and to 
think that the threat has diminished, we are going to be 
crippling ourselves in our ability to prevent future attacks.
    It is not the case that the enemy has not tried to attack 
us over the past several years. In December 2001, the Shoe 
Bomber tried to blow up an airliner coming to the United 
States. Last summer the British, with our help, disrupted a 
plot that, had it been carried out, would have resulted in 
multiple explosions on airliners flying from the United Kingdom 
to the United States. So it is not for want of trying that we 
have not suffered a successful attack.
    Even in recent months, we have disrupted terrorist plots in 
our country: The plot against Fort Dix and the plot against JFK 
Airport. Last week German authorities thwarted a serious plot, 
as they themselves have acknowledged, directed in part against 
Americans in Europe. And Danish police also arrested terrorist 
suspects in their country.
    These events underscore what the National Intelligence 
Estimates (NIEs) made clear, which is the enemy's effort to 
continue to focus on the West and to recruit operatives who can 
move in the West. And that is one of the reasons that I want to 
thank the Committee for the 9/11 legislation, which has now 
given us some additional capabilities in plugging the 
vulnerability through the Visa Waiver Program. Every day at our 
own borders we turn away dangerous people, including 
individuals with known ties to terrorism, as well as criminals, 
drug dealers, and human traffickers.
    So I sum up by saying that I believe the reason that there 
have not been successful attacks on American soil is not 
because the threat is diminished; it is because we have raised 
our level of protection and our level of disruption, both by 
undertaking action overseas and undertaking action within our 
own borders. It is a testament to the partnership reflected in 
part by those at this table, the hard work of the dedicated men 
and women who work for the agencies of the Federal Government 
as well as State and local officials, and our partnerships 
overseas, which I think become stronger every single day.
    Now, that is not to say that our efforts have been flawless 
or that our work is over with. On the contrary, the biggest 
challenge to us is not to lose the sense of urgency which 
animated all of us in the weeks and months after September 11, 
2001. If we continue to adapt ourselves and continue to feel 
the need to move quickly and substantially to meet this threat, 
we are maximizing our ability to protect ourselves. But if we 
do otherwise, we are turning around and moving in the wrong 
direction.
    Now, I have provided the Committee with a fairly lengthy 
assessment of where I think we are in a number of areas.
    I thought what I might take in the next couple of minutes 
is the opportunity to look at a few areas where I think we are 
now addressing gaps that have not yet been filled. Part of what 
we have to do, of course, is not merely plug those 
vulnerabilities that have been identified looking backwards, 
but we need to look forward. In fact, we need to look around 
the corners at some vulnerabilities that have not been spoken 
about. And we need to make sure that we are working to address 
those as well. So let me talk about a number of those.
    The first is general aviation. As this Committee knows, we 
have spent a lot of time focused on the question of people 
smuggling in weapons of mass destruction through maritime 
containers or putting them on commercial aircraft, but we have 
not looked at the question of general aviation coming from 
overseas as a potential vector through which weapons of mass 
destruction or people who are dangerous might be smuggled into 
the country. We are now working to plug that threat.
    Later today we will be unveiling a plan to begin the 
process of increasing our security for overseas general 
aviation coming into this country substantially. The first step 
of this is to move forward with earlier screening of people who 
are on crews and who are passengers in general aviation planes 
crossing the Atlantic and Pacific Oceans. We are going to use 
our authorities to align early reporting of crew members and 
passengers before take-off in the same way we now require for 
commercial airliners so that we can prevent people from getting 
on airplanes and taking off to the United States, and, as 
important, or more important, prevent weapons of mass 
destruction from getting on airplanes and coming to the United 
States on private aircraft. The vision of where we want to go 
with this moves beyond simply screening people, but ultimately 
looks to a process of physical screening of private aircraft 
overseas before they come into the United States.
    We also remain mindful of the threat to our ports not only 
from containers in commercial cargo vessels but from small 
boats and privately owned oceangoing vessels which could seek 
to duplicate a USS Cole-style attack on our ports or again to 
smuggle dangerous weapons, materials, or people into the 
country. We have been working with small-vessel owners, 
principally through the Coast Guard and Customs and Border 
Protection, to assess what those risks are and to come up with 
a strategy that will help us efficiently but also protectively 
to address the risk presented by smaller boats and privately 
owned oceangoing vessels to our country.
    We have, for example, in the last week launched a program 
in Seattle to work with local authorities to conduct 
vulnerability and risk assessments with respect to the 
smuggling of nuclear materials into the port of Seattle through 
private vessels. Part of this involves the deployment of 
radiation detection technology and equipment to key maritime 
pathways and choke points so that we can begin the process of 
radiological scanning of small vessels that might bring nuclear 
materials into the port of Seattle. As we evaluate how this 
works in an operational environment, we look to expand this 
capability from Seattle to places like the port of San Diego 
and also New York City as well.
    I am also committed, as are my colleagues at the table, to 
particularly focus on those kinds of challenges and weapons 
which could have a truly catastrophic effect on the United 
States, and that means, of course, nuclear or dirty bomb-type 
attacks.
    We recognize that our first and most urgent priority is to 
prevent nuclear weapons from coming into this country and 
preventing dirty bombs from being constructed and detonated. 
And that is, of course, where we put most of our attention. But 
we do have to recognize that, should our actions fail, nuclear 
forensic and attribution capabilities would be critical in 
protecting against a follow-on attack, and also in making sure 
that we responded to anybody who launched nuclear bombs against 
us using terrorists as the delivery vehicle.
    Therefore, even before an attack occurs, our ability to 
demonstrate that we have real and robust forensic and 
attribution capability will give us a significant measure of 
deterrence value, particularly against any state actor that had 
it in mind to use terrorists as a disguised method of 
delivering a nuclear bomb against the United States. That is 
why we have created the National Technical Nuclear Forensics 
Center, which is an interagency center focused on forensics and 
attribution, and it is housed within our Domestic Nuclear 
Detection Office. I had an opportunity last week to meet with 
the Interagency Leadership Executive Committee of that center. 
It is dedicated to continuing to develop and improve and to 
sustain a rapid and credible capability to support attribution, 
conclusions, and potential responses to a nuclear attack or a 
dirty bomb in this country. I think that is a critical element 
of our protection and response to a catastrophic attack.
    The Nuclear Forensics Center involves partnerships all 
across the Federal Government, including very deep partnerships 
with my colleagues at the table here today--DNI, FBI, and the 
NCTC.
    Of course, our improvements to screening, critical 
infrastructure protection, and intelligence fusion and sharing 
have to continue. We have to continue sharing intelligence 
horizontally and vertically. Again, I want to commend the 
Chairman and the Ranking Member for their leadership on 
information sharing in past sessions of Congress, and we are 
dedicated to being a full partner in the Information Sharing 
Environment about which more will be heard later this morning.
    Finally, I would like to observe that, again, one of the 
cutting-edge elements of this information sharing has to do 
with biological threats. Providing early warning 
biosurveillance on human and animal health, protection, and 
vulnerabilities of the food and water supply, and the 
environment in general as it relates to biological conditions 
is a critical element in getting early warning and rapid 
response to a biological threat, whether that be a natural 
threat or a manmade threat.
    We have recently established the National Biosurveillance 
Integration Center which will fuse clinical data, intelligence 
information, and what we get from our Biowatch sensors into a 
comprehensive analysis of biological threats and events. While 
considerable work needs to be done to get this center fully 
deployed and fully operational, we have made some considerable 
progress, particularly in the last year. And, again, this is a 
classic example of an interagency effort, including not only 
those at this table, but the Departments of Defense, State, 
Interior, Agriculture, Health and Human Services, and 
Transportation.
    Let me conclude by saying that as we honor the victims of 
September 11, 2001, tomorrow, I hope that the anniversary of 
that day is not merely an opportunity to commemorate the loss 
of life or to celebrate heroism, but also an opportunity to 
rededicate ourselves to the struggle and to recognize the most 
important lesson is ``Never again,'' at least to the limit of 
our human abilities.
    I would like to thank the Committee for your ongoing 
support and for the opportunity to testify at the hearing. I 
look forward to continuing our important work in protecting the 
American people.
    Chairman Lieberman. Thank you very much, Secretary 
Chertoff, for an excellent statement. I particularly want to 
thank you for those announcements toward the end of your 
statement about what you are doing to try to raise the security 
with regard to private aviation and boats coming into the 
country, as well as the development of a center to make sure 
that we have the forensic capability to consider rapidly the 
aftereffects of a nuclear attack. This is a gruesome business, 
but as Senator Collins said and the 9/11 Commission said, it 
was a failure of imagination, which is to say a failure to 
imagine that anyone could possibly do what the terrorists did 
on September 11, 2001, that created part of the vulnerability 
we had on that day. And I think you are imagining now what our 
enemies might do to attack us, and you are attempting to close 
those vulnerabilities. So I appreciate it very much.
    The Department of Homeland Security, as we know, was 
created out of Congress. The next two agencies we are going to 
hear from are the Office of the Director of National 
Intelligence (ODNI) and the National Counterterrorism Center 
(NCTC), who were the two leading recommendations of the 9/11 
Commission, the so-called Kean-Hamilton Commission. It strikes 
me that since they are both headed now by retired admirals, we 
may have to revise MacArthur's old statement and say that ``Old 
sailors not only do not die; they do not even fade away.''
    [Laughter.]
    They come back and serve their country, and for that we are 
extremely grateful.
    Admiral McConnell, the Director of National Intelligence--
--
    Senator Warner. Add me to the list.
    Chairman Lieberman. Senator Warner is added to the list as 
well. You are not calling yourself an ``old sailor'' are you?
    Senator Warner. You better believe it. I am older than 
these guys.
    [Laughter.]
    Chairman Lieberman. Admiral McConnell, go ahead.

 TESTIMONY OF HON. J. MICHAEL MCCONNELL,\1\ VICE ADMIRAL, U.S. 
         NAVY (RET.), DIRECTOR OF NATIONAL INTELLIGENCE

    Admiral McConnell. Sir, Senator Warner was the Secretary of 
the Navy when I was briefing him as a young lieutenant, so 
thank you, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral McConnell appears in the 
Appendix on page 73.
---------------------------------------------------------------------------
    Mr. Chairman, Senator Collins, and Members of the 
Committee, thank you very much for the opportunity to appear 
before the Committee to provide a status of our efforts to 
confront terrorist threats to the Nation. I also appreciate the 
opportunity to describe the implementation of the reforms 
mandated by the Congress and the President since September 11, 
2001, and, as has been mentioned, 6 years ago tomorrow.
    My biggest concern, as mentioned by Senator Collins, is 
going back to September 10th thinking by many in our country. 
As stated in our July National Intelligence Estimate, the level 
of focus and commitment may wane in time. The threat is real, 
and we must remain vigilant.
    As noted, in July my office released the National 
Intelligence Estimate, the intelligence community's most 
authoritative judgment on a particular subject, and this was on 
the terrorist threat to the U.S. homeland. In our key 
judgments, an unclassified version of which has been mentioned 
here and is posted on our website, for the 3-year period of the 
estimate, we assess that our Nation faces and will continue to 
face a persistent and evolving threat, mainly from Islamic 
terrorist groups and cells, and most especially al-Qaeda.
    The terrorist threat without question is real. I will share 
with you today how we in the intelligence community are working 
to counter these threats. I also have submitted a more 
comprehensive overview in my statement for the record, and I 
ask that it be submitted to the record.
    Chairman Lieberman. Without objection.
    Admiral McConnell. To confront today's threats, we have 
made many changes in the way we conduct intelligence, law 
enforcement, homeland security, and diplomatic and defense 
activities. Our greatest progress can be concentrated, I 
believe, in four areas: First, by improving our organizational 
structures to meet the new threats of this century; next, by 
fostering greater information sharing to provide the right 
information to the right people at the right time, largely 
driven by this Committee; third, strengthening our intelligence 
analysis; and, fourth, implementing the necessary reforms that 
allow us to build a dynamic intelligence enterprise that 
promotes diversity to gain insight and to sustain a competitive 
advantage against our adversaries.
    First let me touch on the structural improvements in the 
intelligence community. One of our challenges was integrating 
foreign and domestic intelligence, that is, foreign 
intelligence collected inside the United States. We are 
ensuring that we collect the right information to most 
accurately and objectively reflect the threats inside the 
United States. We are better able to do this with the 
establishment of the FBI's National Security Branch (NSB). The 
NSB integrates the FBI's counterterrorism, counterintelligence, 
weapons of mass destruction, and intelligence programs, 
allowing for a coordinated focus on collecting foreign 
intelligence within the United States. And, of course, as 
mentioned, the National Counterterrorism Center (NCTC) uses all 
that information with foreign collected information to provide 
a more comprehensive picture.
    Second, with regard to our structure, creation of the 
National Clandestine Service at CIA to guide all clandestine 
human operations across the community with the most effective 
leadership allows for better oversight and coordination we did 
not have before.
    Third, we are working to dismantle stovepipes, the 
stovepipe mentality inside the intelligence community. This 
mind-set is where an agency can produce, and limit within its 
walls, vital national intelligence. One way we promote greater 
collaboration is by using cross-community mission managers to 
identify intelligence priorities, gaps, and requirements. 
Mission managers engage in strategic planning and collection 
management against our hardest targets. Today we have mission 
managers for North Korea, Iran, Cuba, and Venezuela, 
counterterrorism, counterproliferation, and 
counterintelligence.
    Finally, with the support of this Committee, we have 
established a Program Manager for the Information Sharing 
Environment to enhance our sharing of terrorism information not 
only among Federal but also among State, local, tribal 
governments, as well as the private sector.
    Let me turn now more specifically to information sharing. 
Our efforts to improve information sharing mechanisms are of 
special significance, given that the failure to do so 
contributed to our inability or our failure to prevent the 
September 11, 2001 attacks. In our July National Intelligence 
Estimate, we assess that al-Qaeda is planning to attack the 
homeland, is likely to continue to focus on prominent 
political, economic, and infrastructure targets, with a goal of 
producing mass casualties, visually dramatic destruction, and 
significant economic shocks. And, of course, as mentioned by 
the Chairman, the intent is to create fear among our 
population.
    To counter this, we must depend not only on the 16 agencies 
of the intelligence community, but also on the eyes and ears of 
our State and local partners across the country. And more than 
depending on them, we must be willing to share threat 
information and work with them to protect our Nation. We 
believe that State and local partners can no longer be treated 
only as first responders, but also as the first lines of 
prevention. In the past 6 years, the Program Manager for the 
Information Sharing Environment has led the charge to transform 
our policies, processes, procedures, and, most important, 
workforce or workplace cultures to reinforce sharing terrorist 
threat information as the rule, not the exception. I have also 
made improved information sharing a centerpiece of the DNI's 
strategic planning going forward.
    Although the effort to implement the Information Sharing 
Environment is well underway, it is essential that the 
implementation activities take place within a broader strategic 
context of enhancing our Nation's ability to combat terrorism. 
The ultimate goal is not simply information sharing for the 
sake of sharing. The objective is to improve our national 
capacity to protect our Nation from future attack. We are 
working very hard to do just that.
    Let me now turn to analysis. We are in the process to 
fundamentally reform our analytical process. In addition to 
focusing on improved formal training and analytical rigor, we 
are moving the intelligence community toward implementing a 
community-wide information technology architecture that allows, 
among other things, analysts to better share and to 
collaborate. This means community-wide computer connectivity 
and standardized information-sharing policies. So whether you 
are an analyst in Hoboken or Honolulu, a special agent in the 
FBI, or a soldier on the front lines, we will be able to 
contribute to and benefit from accurate and timely 
intelligence. This is balanced, of course, so that we do not 
compromise operational security, consistent with our 
responsibilities to protect sources and methods.
    The Office of the Director of National Intelligence is also 
developing virtual communities for analysts who can securely 
exchange ideas and expertise across organizational boundaries, 
to find, access, and share information to make their analytical 
judgments. We are better engaging with outside professionals 
who can challenge our analytical assumptions, provide deep 
knowledge, insights, and new ways of thinking. We conduct red-
teaming and alternative analysis to ensure we have examined all 
possibilities in our analytical process.
    We also have taken steps to ensure the impartiality of our 
analysis and our analytical products. As mandated by the 
Intelligence Reform Act, we established an Assistant Deputy 
Director for Analytical Integrity and Standards. This person 
serves as a focal point for analysts who wish to raise concerns 
regarding politicization, bias, lack of objectivity, 
appropriate alternative analysis, or dissenting views.
    We also have made qualitative improvements to our analysis, 
specifically our National Intelligence Estimates. Key judgments 
are written to explore more thoroughly the implications of our 
critical underlying conclusions. Appendices and annexes now 
provide full transparency in our analytical judgments by 
describing the analytical train of reasoning we used to arrive 
at our conclusions. And the main text now highlights the full 
range of analytical judgments and their implications, bringing 
dissenting opinions to the fore so policymakers, such as 
Members of this Committee, can have the benefit of the full 
analytic picture.
    Let me move now to implementing necessary changes in our 
policy and our practices. I will turn to the policies we have 
enacted across the intelligence community as well as policies 
we are currently pursuing through our recently completed 100-
day plan and the upcoming 500-day plan. These reforms will 
allow us to better confront threats to the Nation as we go 
forward.
    In June, I signed a directive mandating civilian joint duty 
for intelligence officers across the intelligence community. 
This initiative was started by Ambassador Negroponte as far 
back as 2005. It was difficult to get agreement, but it is now 
passed. Now it is up and running. If an up-and-coming officer 
aspires to be serving at the senior reaches of the community, 
he or she will have to serve a tour of duty at a different 
agency outside their parent agency during their career. The 
experience provides the officer with broader perspective and 
brings the community towards a higher level of collaborative 
behavior. Our approach was patterned after the successful 
Goldwater-Nichols bill of 1986 that moved DOD to military 
jointness.
    We also have been working to recruit intelligence officers 
with the needed background and skills that will strengthen our 
abilities. We are developing programs to recruit young people 
from all walks of life, including first-generation and second-
generation Americans and members of traditionally 
underrepresented groups with language skills and cultural 
understanding that we need for the insights and for our 
analysis. Recruiting new and talented employees means little, 
however, if we are unable to get them through our security 
process. Therefore, we have a pilot project with the Department 
of Defense to see if we can go much faster using an automated 
process, commercial best practices, and then a new approach for 
life-cycle monitoring once you are on the inside.
    We have accomplished a great deal, but we still have a lot 
more to go. To better integrate the intelligence community, we 
initiated a deliberate planning process based on the principles 
of transparency, accountability, deadlines, and deliverables. 
The first phase of these efforts was spelled out in our 100-day 
plan. They were designed to jump-start the necessary reforms in 
the community to build momentum. The next phase, our 500-day 
plan, started in August. It is intended to sustain and 
accelerate the momentum with an expanded set of initiatives and 
greater level of participation. Our plan was developed through 
a community-wide effort through the use of working groups, 
blogs, and wikis to solicit inputs from the community.
    I am happy to report that enthusiastic participation by the 
community allowed us to put together what we think is a 
comprehensive plan. This plan will be executed through cross-
organizational and community-wide engagement. Our primary 
emphasis is improved collaboration across the community. 
Working groups from each of the areas will focus on the key 
issues and engage the key stakeholders. Our intent is to 
integrate the intelligence community and enable cross-
organizational collaboration across critical mission areas to 
serve our customers better but, more importantly, to better 
protect the Nation. We must continue to accelerate our efforts.
    In closing, we have come a long way over the past 6 years 
developing a more integrated, more collaborative community. I 
believe the result is a stronger community better able to 
protect the Nation. I think the Nation is better protected 
today than it was 6 years ago, but we must remain vigilant, and 
we must remain engaged.
    Mr. Chairman, that concludes my prepared remarks. I look 
forward to your questions.
    Chairman Lieberman. Thanks very much, Admiral McConnell. I 
have a few questions that I hope we can build on during the Q&A 
period. Particularly, I appreciate your last thoughts there, 
which is that you are moving toward an integrated, 
collaborative intelligence community, which is part of what we 
did not have on September 11, 2001.
    Admiral Redd, thanks for being here. Thanks for your 
service. I will just say in introducing you that more than a 
year ago, Senator Collins and I went out and spent a good part 
of a day at the National Counterterrorism Center, and it was 
one of those occasions when you have the satisfaction of 
actually seeing something that was called for in legislation, 
enacted and carried out. And I remember we said to each other--
I went home that night and said to my family, ``I was at the 
NCTC today, and you all have reason to feel more secure tonight 
as a result of what is happening out there.'' So I thank you 
for that, and we welcome your testimony now.

 TESTIMONY OF HON. JOHN SCOTT REDD,\1\ VICE ADMIRAL, U.S. NAVY 
 (RET.), DIRECTOR, NATIONAL COUNTERTERRORISM CENTER, OFFICE OF 
             THE DIRECTOR OF NATIONAL INTELLIGENCE

    Admiral Redd. Thank you, Mr. Chairman, and that is a very 
good point, that words do eventually mean something, and they 
do translate into tangible things, and NCTC is a very tangible 
example of that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Redd appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    Chairman Lieberman, Senator Collins, distinguished Members 
of the Committee, thank you for the opportunity to testify 
before you today on our Nation's efforts to confront the 
terrorist threat to the homeland since September 11, 2001. I 
also have a short oral statement and would ask that my longer 
written statement be submitted for the record.
    Chairman Lieberman. Without objection.
    Admiral Redd. And before we leave the old sailors analogy, 
I would note that Director Mueller, as a former Marine, is a 
member of the Department of the Navy, which is probably about 
as far as we can take that discussion without getting into 
trouble here.
    [Laughter.]
    Chairman Lieberman. Remember, we are looking for 
collaboration.
    Admiral Redd. Yes, sir.
    Mr. Mueller. Our liaison just broke down.
    Admiral Redd. In the 6 years since September 11, 2001, the 
U.S. Government has taken significant steps to improve our 
understanding of the terrorist threat and our ability to combat 
it, and many of those steps are indeed the result of the 
Intelligence Reform and Terrorism Prevention Act, which was 
championed by this Committee. And for that, sir and madam, we 
are in your debt.
    While I am going to focus today on the progress we have 
made, I would just start with a comment that none of what I say 
should obscure the real and significant challenges that we 
continue to face. We are in a long war, and our enemy is 
determined and dangerous. Our counterterrorism efforts have 
disrupted many of the enemy's plans and diminished certain 
capabilities. But the events of the last days and the last 
weeks clearly demonstrate the clear and present danger which 
continues to exist.
    With that in mind, let me turn briefly to the role the 
National Counterterrorism Center (NCTC) plays and continues to 
play in the war on terror. Today, as directed by the 
legislation, NCTC has two roles, two fundamental roles. In 
military terms, I wear two hats. The first is a very familiar 
one to everyone, and that is intelligence, and in that hat I 
report to Admiral McConnell, the Director of National 
Intelligence. The second hat is to do with a thing called 
``strategic operational planning,'' which is a new and I 
believe revolutionary capability in our government. And in that 
hat, I report to the President.
    Let me first turn to NCTC's role in counterterrorism 
intelligence. As envisioned in the legislation, analysis is the 
heart and soul of NCTC's intelligence mission. More than half 
of our government workforce, which is about 400 people, is 
devoted to this effort. I would submit that today NCTC provides 
the best example of all-source, integrated analysis in the 
intelligence community. There are two primary reasons for that, 
some of which have been alluded to here.
    First, NCTC is the only place in the U.S. Government where 
all intelligence, both foreign and domestic, comes together.
    Second, we are, as indicated and directed in legislation, a 
truly joint organization. Virtually all of our analysts come 
from other Federal agencies, and this allows them to leverage 
the diverse skills and backgrounds of their co-workers in 
reaching their analytic conclusions.
    In addition to producing analysis, NCTC also has a mandate 
to integrate analysis across the intelligence community. The 
net result of this effort is a full spectrum of intelligence 
product for policymakers and operators. These range from raw 
intelligence products, such as our threat matrix, which is 
designed to provide immediate situational awareness of an 
impending threat, to more in-depth types of analytic products, 
which, for example, the President's Daily Brief (PDB).
    Significantly, virtually all of the reports for senior 
policymakers are coordinated through NCTC as the DNI's mission 
manager. The purpose of that is to ensure that differing views 
are not only represented but that they are also put in context.
    So how was all this played out in the real world? Perhaps 
one of the best examples occurred a year ago during the U.K. 
aviation threat. In this, the most significant threat to the 
homeland since September 11, 2001, NCTC worked hand in glove 
with DHS, FBI, CIA, NSA, and others to share intelligence and 
provide integrated analysis in a very dynamic environment. When 
the President and the National Security Council met, NCTC gave 
the intelligence briefing, combining both foreign and domestic 
information. In my view, and in the view of others, that is 
exactly what the legislation had in mind when you established 
NCTC.
    Another key function of NCTC is information sharing. Let me 
give you three examples now of how we have improved information 
sharing, I believe dramatically so, since Septemer 11, 2001.
    The first is NCTC Online. Simply put, this is the Nation's 
premier classified website for counterterrorism intelligence. 
Maintained by NCTC, this highly classified electronic library 
contains over 7 million counterterrorism documents--or 
terrorism documents. These reports come into NCTC on over 30 
networks from over 60 organizations, and it is instantly 
available to around 8,000 analysts around the world.
    The second example of information sharing is what we call 
the Terrorist Identities Datamart Environment. You have to have 
a good acronym, so it is TIDE. Today, the U.S. Government has 
one central knowledge base of all known and suspected 
terrorists. It is maintained by NCTC and is based on all-source 
classified information. Every day we distribute a sensitive but 
unclassified extract, which is the basis of various screening 
activities. We send that to Bob Mueller's folks at the 
Terrorist Screening Center, and that becomes the information 
which provides for entry checks at borders, Secretary 
Chertoff's business, consular checks for visa applications in 
the State Department, and TSA's no-fly list.
    The third example of information sharing deals with 
situational awareness. Every day NCTC chairs three secure video 
teleconferences--8 o'clock in the morning, 3 o'clock in the 
afternoon, and 1 o'clock in the morning. There are partipants 
from across the community to make sure everybody is on the same 
page. Our Watch Center is open 24/7, passing information as 
events occur, again, around the intelligence community. Also, 
significantly, we are physically collocated with the FBI and 
CIA's Watch Centers for Counterterrorism. And of great 
significance to those who have been in the intelligence 
business, there are no doors between those Watch Centers.
    Let me now turn briefly to NCTC's second role in the war on 
terror: Strategic operational planning. In this role, we lead 
an interagency planning effort that brings all elements of 
national power to bear in the war on terror. This effort also 
involves a spectrum of activities from deliberate, long-range 
strategic planning to more dynamic, short-range operational 
planning efforts. An example of the former is the National 
Implementation Plan (NIP), which was approved by the President 
last year. NIP serves as the Nation's strategic blueprint for 
the war on terror and it integrates the full weight of our 
diplomatic, homeland security, law enforcement, financial, and 
military activities, as well as intelligence. At the other end 
of the planning spectrum are more operational planning efforts, 
including those established to address specific threats. The 
interagency task force, which deals with the current heightened 
threat environment, is an ongoing example.
    So where does all this leave us? Despite continuing and 
significant challenges, I believe that today, 6 years after 
September 11, 2001, the United States is better prepared to 
fight the war on terror than at any time in our history. Let me 
give you seven reasons why I say that.
    First, our intelligence is better. Terrorists are a tough 
target, but our collection, our analysis, and our production 
are significantly improved.
    Second, we have made major strides in information sharing 
and getting intelligence to the people who need it to take 
action.
    Third, we are taking the fight to the enemy and have 
achieved significant successes in the field. Thousands of 
terrorists have been taken off the field of battle, and dozens 
of plots have been disrupted.
    Fourth, we are attacking every element of the terrorist's 
life cycle, including terrorist travel and terrorist finance.
    Fifth, and very importantly, this is not only an American 
effort. We are working more closely and more effectively with a 
greater number of allies around the world to defeat the 
terrorists.
    Sixth, and of special interest to this Committee, we have 
taken significant steps to make the homeland a hostile place 
for terrorists to enter and operate.
    Finally, through a new strategic planning effort, we are 
laying the groundwork to take the efforts already underway to a 
new level of integration and effectiveness.
    All of this means to me that we are safer today than we 
were on September 11, 2001. But we are not safe, and nor are we 
likely to be for a generation or more. We are in a long war. We 
face an enemy that is adaptable, dangerous, and persistent, and 
who always has a vote. While we have won many battles since 
September 11, 2001, there are many battles yet to be fought, 
and we must anticipate that there will be setbacks along the 
way. Thank you, sir.
    Chairman Lieberman. Thank you, Admiral Redd, for that 
excellent testimony.
    Director Mueller, obviously the FBI is the senior 
institution at the table, pre-existing September 11, 2001, but 
under your leadership it has gone through quite a significant 
internal transformation to meet this new threat to our 
homeland. So I thank you for being here, thank you for what you 
have done, and look forward to your testimony now.

 TESTIMONY OF HON. ROBERT S. MUELLER III,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mueller. Thank you, Mr. Chairman, and good morning, 
Senator Collins and Members of the Committee. I also appreciate 
the opportunity to be here today to discuss the terrorist 
threats facing our Nation, as well as those steps, measures the 
FBI has taken to confront those threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mueller appears in the Appendix 
on page 106.
---------------------------------------------------------------------------
    After September 11, 2001, the FBI's priorities shifted 
dramatically. The FBI's top priority is and will continue to be 
the prevention of another terrorist attack. By joining our 
traditional collection expertise with our expanding 
intelligence capabilities, we have had a number of successes in 
the war against terror. Several have been mentioned here today, 
from Portland, Oregon; Torrance, California; to Chicago; to the 
recent Fort Dix and JFK plots. Indeed, the development of a 
mature intelligence and national security infrastructure is and 
will continue to be a key to our success.
    We have established the National Security Branch, and the 
Directorate of Intelligence has dedicated and integrated 
intelligence services within the Bureau. And beginning 
immediately after September 11, 2001, we have made significant 
strides in reshaping the way we meet our mission. We have 
doubled the number of intelligence analysts on board, tripled 
the number of linguists, set up field intelligence groups 
comprised of FBI, Federal, State, and local partners in each of 
our 56 field offices. And today intelligence is woven 
throughout every FBI program and every operation.
    While much of the U.S. Government's attention is focused 
on--and rightfully so--al-Qaeda's reach from abroad into the 
United States, homegrown radicalization also exists. The role 
of our law enforcement partners is absolutely critical to 
identifying individuals and groups presenting this threat, 
especially through the FBI's Joint Terrorism Task Forces, of 
which there are over 100 today. And, moreover, outreach to 
Muslim and South Asian communities plays an essential role in 
helping the FBI to identify violent extremists within those 
communities. To that end, I periodically meet with members of 
major Muslim and Arab community-based organizations, civil 
rights groups, as do senior executives at FBI headquarters.
    Special agents in charge of all of our 56 field offices 
conduct town meetings with members of Arab and Muslim 
communities, and members of the Arab American community attend 
the FBI's Citizens' Academy, an 8-week program designed to give 
community leaders an overview of the FBI and the Department of 
Justice procedures and operations.
    And while the FBI and other members of the intelligence 
community, several sitting here today, and State and local law 
enforcement partners have been successful to date in preventing 
another major terrorist event within the homeland, we cannot 
rest easy. al-Qaeda and other extremist groups continue to have 
the will and the ability to attack us, and we must all continue 
our vigilance, commitment, and efforts to keep America safe.
    The FBI was created nearly 100 years ago to address crime 
crossing State boundaries. The threats we now face are global, 
and technology is moving more quickly than we could have 
foreseen just 10 years ago. And we together, those of us at the 
table and in the FBI, must continue to protect the security of 
our Nation while upholding the civil rights guaranteed by the 
Constitution.
    Mr. Chairman, Senator Collins, Members of the Committee, I 
appreciate the opportunity to testify this morning, and I look 
forward to answering your questions.
    Chairman Lieberman. Thanks very much, Director Mueller.
    Gentlemen, I would say that my impression, as I listened to 
the four of you--and I hope that others across the country will 
be able to do so--is the picture of a great Nation that was 
attacked on September 11, 2001 in a way that we simply did not 
anticipate, now marshaling our enormous resources and 
patriotism to defend against another such attack. So, again, no 
one at the table, no one up here is feeling comfortable because 
the enemy is out there. But I think the composite picture is of 
enormous progress that has been made to close the 
vulnerabilities that existed on September 11, 2001, and again 
for that I thank you.
    We are going to have a 6-minute round here at the 
beginning. Votes will go off at 11 o'clock, but I am going to 
keep the hearing going and just ask us to take turns going over 
to vote and coming back.
    I want to talk in specifics about the collaboration. The 9/
11 Commission and others, in looking back at September 11, 
2001, pointed to the gaps particularly between the CIA and the 
FBI in sharing information, some of which came from a historic 
pre-September 11, 2001 mind-set about where the responsibility 
of each was and how you could not have anybody involved in 
foreign intelligence work with domestic law enforcement.
    Obviously, we are in a different kind of war now where the 
lines between foreign and domestic are effectively blurred, if 
not eliminated, and I wanted to ask both Director Mueller and 
Director McConnell if you would just address briefly whether 
you think that the gaps that existed between the two 
communities have been effectively closed since September 11, 
2001. Admiral Redd, sometimes a picture is worth a thousand 
words. When we were out at the NCTC, we noted that there was no 
door between the CIA desk and the FBI desk. But beyond that, 
are you sharing information, Admiral McConnell?
    Admiral McConnell. Sir, I think the gap is significantly 
less than it was. I think we are still closing it. It is the 
process of transforming cultural--or human behavior. As you 
mentioned, the wall between us that was generated in a period 
of the 1970s, 1980s, the difference between foreign 
intelligence and domestic activity, was significant. In my 
view, that was one of the things that contributed to our 
failings at September 11, 2001. So while legislation has 
changed so we can now talk to each other, as opposed to going 
one way, it can go back and forth. We have created the National 
Security Branch in the FBI to actually have an intelligence 
mission more focused on this sort of thing.
    So I think we are significantly better, but I would not 
want you to take away from this that we have done everything 
that we need to do. It is truly cultural transformation. This 
means human behavior. That is one of the reasons we pushed the 
joint duty approach to get people to serve in the other 
person's organization.
    Chairman Lieberman. Fair enough. Director Mueller.
    Mr. Mueller. I would support what the Admiral said. I had 
mentioned three things. The impediments to sharing that there 
were before September 11, 2001, have been removed. The PATRIOT 
Act is in some large part attributable or responsible for 
breaking down those walls. Second, the NCTC as a mechanism for 
sharing has worked exceptionally well. There are no doors, 
there are no walls in terms of the exchange of information, the 
quality and caliber of the analysis that is done there. And, 
third, the exchange of personnel. Now that the wall has been 
broken down, the ability to trade personnel and information, we 
have established the National Security Branch, the No. 2 person 
in the National Security Branch, Phil Mudd, is from the CIA, as 
an example of the exchange of personnel and the importance we 
all recognize of sharing information, exchanging information, 
integrating information, whether it be collected overseas or 
collected domestically.
    And, finally, I would say that I would agree that we have 
made substantial strides, but we have a ways to go.
    Chairman Lieberman. Thanks. The other respect is that 
intelligence gathered overseas may directly relate to 
intelligence that we need here at home to protect against an 
attack on our homeland. We are, as we have all said, at war, 
and in this war, even more than in traditional wars, 
intelligence is critically important to prevent enemy attacks. 
Part of what we are trying to do is adjust our intelligence-
gathering system and our technologies to that new reality.
    Admiral, before we broke for the August recess, we had 
quite a go-round about FISA, and we adopted legislation. I 
wanted to ask you to speak for a moment about that, and if you 
can in this open setting--there have been some press 
suggestions, media suggestions that the United States through 
your office, was able to assist the German Government in the 
apprehension of those plotting terrorist attacks against 
American targets in Germany. Could you comment on that 
specifically and more generally on how the system we adopted in 
July, early August, is going?
    Admiral McConnell. Yes, thank you, Senator. With the 
Foreign Intelligence Surveillance Act under consideration for 
updating, we found ourselves in a position of actually going 
backwards, losing capability because of the interpretations of 
the law.
    Chairman Lieberman. By courts.
    Admiral McConnell. Yes, sir, by the FISA Court. Looking at 
the requests, it was actually taking us too much time, and 
because of the interpretations we were losing ground. So the 
approach we took was to ask for basically three things: First 
of all, do not require the intelligence community to obtain a 
warrant when we are targeting a foreigner, a terrorist, in a 
foreign country. We had found ourselves in the position where, 
based on the interpretation of the law, we were being asked to 
get warrants against terrorists operating in a foreign country. 
So we asked for relief for that.
    The second thing, for those private entities that assisted 
us, we needed to have some protection for them with regard to 
liability.
    And the third thing, quite frankly, was in the interest of 
protecting civil liberties and the privacy of Americans, we 
felt it was appropriate to be required, as we were in the old 
FISA legislation, to have a warrant anytime we targeted a U.S. 
person. That would include even a foreigner in this country 
suspected of being a terrorist. So we thought it had the right 
balance.
    It was passed, as you well know, and we are very pleased 
with that, and we are better prepared now to continue our 
mission--specifically Germany, it made significant 
contributions. It allowed us to see and understand all the 
connections with regard----
    Chairman Lieberman. The newly adopted law facilitated that 
during August?
    Admiral McConnell. Yes, sir, it did. The connections to al-
Qaeda, the connections specifically to what is referred to as 
the Islamic Jihad Union (IJU), an affiliate of al-Qaeda. 
Because we could understand it, we could help our partners, and 
through a long process of monitoring and observation, realizing 
that the perpetrators had actually obtained explosive liquids, 
hydrogen peroxide which they would condense or try to condense 
to an explosive. And so at the right time when Americans and 
German facilities were being targeted, the German authorities 
decided to move.
    [Information provided for the Record from Admiral McConnell 
follows:]

                  INFORMATION SUBMITTED FOR THE RECORD

    During the Senate Committee on Homeland Security and 
Governmental Affairs hearing on September 10, 2007, I discussed 
the critical importance to our national security of the Foreign 
Intelligence Surveillance Act (FISA), and the recent amendments 
to FISA made by the Protect America Act. The Protect America 
Act was urgently needed by our intelligence professionals to 
close critical gaps in our capabilities and permit them to more 
readily follow terrorist threats, such as the plot uncovered in 
Germany. However, information contributing to the recent 
arrests was not collected under authorities provided by the 
Protect America Act.

    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Admiral Redd, you recently said in an 
interview with Newsweek, ``We are going to get hit again.'' 
Secretary Chertoff talked today about some of the possible 
lines of attack that he is working on, for example, general 
aviation, small boats.
    When you look at the intelligence, what kind of attack do 
you believe we should be preparing for?
    Admiral Redd. Thank you, Senator. First of all, there were 
two parts of that interview, which, as you know, sometimes get 
conflated. One is the heightened awareness or the heightened 
threat environment in which we are right now. And the second is 
the statement, which I also made in my oral statement, that 
over time, over a 40-year generational period, just 
statistically batting a thousand would be very difficult, and 
that is why I said we may get hit again.
    The short answer is you cannot focus on any one of those. 
We watch very carefully what al-Qaeda is saying. We watch their 
planning. There is a certain sense at which they tend to come 
back and be persistent and try the same things again. As was 
indicated in the NIE, they are focused on large elements or 
large reaction to things like our transportation system, 
particularly aviation. But we cannot just look at one of those. 
We have to look across the board.
    Senator Collins. Secretary Chertoff, if you look at the 
recent plots that were thwarted in this country, if you look at 
Germany just last week, at Scotland, London, the JFK plot, it 
appears that terrorists still are looking at bombs and that 
they are looking at IEDs as the weapon of choice.
    What is DHS doing in the area of IEDs?
    Secretary Chertoff. Well, Senator, I think you are correct 
that the attack weapon of choice still is the IED, and we are 
doing a number of different things, all of which I think will 
soon be captured in a strategic document directed both by 
Congress and the President. But let me go through some of the 
major elements of what we are doing.
    Of course, we begin with detection. We want to detect and 
prevent something from going off. One element of that, of 
course, is technology. Through our Science and Technology 
Directorate, we are doing research in such things as technology 
that will enable us to detect liquid explosives even when they 
are in a container, and to detect those liquid explosives 
rapidly and accurately in an operational environment.
    With respect to other kinds of technological issues, of 
course, the Defense Department is doing a lot of work based on 
what they are seeing in Iraq and other places overseas. We get 
the benefit of that.
    And then through our Office for Bombing Prevention, which 
is part of the Directorate of Infrastructure Protection, we 
actually educate State and local bomb detection and bomb 
prevention units in what they ought to look for and how they 
can deal with these threats.
    A second element, of course, is detecting someone who is 
trying to bring a bomb onto an airplane or into transit or some 
other part of infrastructure. Part of the process of doing 
that, of course, is deploying the existing technology. Part of 
it is an enhanced use of what we call VIPR Teams, which are 
teams with canines and other hand-held detection equipment that 
we can surge into mass transit. We do that in response to a 
particular threat. We do it in response to a high-profile 
event, like the Super Bowl or something of that sort. And we do 
it on a random basis.
    A third element is the use of behavioral observation. This 
is a technique which we see overseas sometimes at airports. The 
Israelis use a version of this. We actually use it at the 
border. We train people in how to observe a behavior in a way 
that tips off somebody who might be planning to do us harm. And 
so as we have increased training and deployment of behavioral 
units at our airports and other locations, that has given us 
another element.
    So we use the whole spectrum of tools, whether it be 
advanced scientific research, widespread deployment of existing 
technology, use of dogs, and training of our screeners and of 
State and local officials in how to detect different kinds of 
components and suspicious behavior.
    Senator Collins. Director Mueller, there was a report last 
week by the Inspector General of the Department of Justice that 
was very critical of the terrorist watch list that is 
maintained under your direction. On the one hand, the IG found 
that there were several known or suspected terrorists who were 
not listed appropriately, and the IG was also critical that 
there were innocent people on the list and that it was very 
difficult for them to be removed from the list. All of us have 
had examples of constituents who have been on the list because 
their name is similar to someone who should be on the list.
    What is your response to the DOJ IG's criticism of the 
watch list? This obviously is an important tool, but its 
usefulness is lessened if it is not as accurate and complete as 
possible.
    Mr. Mueller. Well, we absolutely agree with that, that it 
has to be as up-to-date as possible with the latest 
information. The IG's report gave us some credit for having 
made substantial strides since his previous report, but still 
focused on two areas in which we have still got a great deal of 
work to do. The first is in terms of redress. Since his last 
report, we have established an Office of Redress. It is 
operating. I think both the IG as well as ourselves would like 
it to operate faster. But it is operating successfully.
    The second area is in the quality assurance of the 
information that we get, assuring that it is updated so that 
persons who may have been on the list at some point in time 
when we have additional information are removed from the list. 
And, again, as is often the case, it is a question of money and 
personnel, and we are putting money and personnel into assuring 
and upgrading our quality assurance.
    The IG made 18 recommendations. We are following up on 
every one of those recommendations. I pointed to a computer 
glitch--I will call it a computer glitch--writ large in terms 
of the individuals that in a particular instance, but it was 
over a period of time, did not make it on the list, and that 
has been remedied. So we have taken each one of the 
recommendations from the IG and are working on those 
recommendations.
    One more recent example is we have been able to go through 
and scrub the no-fly list and cut it in half. And so we are 
making progress in terms of the goals that we share with the IG 
in assuring the quality assurance on the list. But it is and 
has been exceptionally successful in terms of doing what it was 
established to do, and that is, identifying persons whom we do 
not want to let into the country, identifying persons who may 
be in the country, and giving us some indication as to where 
they are and what they are doing.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you, Senator Collins.
    As is the custom of the Committee, we call in order of 
appearance, so the next three Senators are Senator Tester, 
Senator Warner, and Senator Coleman.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman, and I appreciate 
the panel's coming here today and testifying before us.
    I want to add my voice to the many colleagues and witnesses 
in remembering the horrors of September 11, 2001. They are real 
stories of bravery, cops, firefighters, regular folks who 
performed acts of heroism that inspired us then and inspire us 
now. We should truly give thanks to those folks whose actions 
represented the best of what this Nation is truly about.
    Six years ago today, I was a regular farmer in Montana, 
unprepared for what was going to be happening the next day. And 
today I am still a farmer, although I spend a little less time 
on the farm. But it is interesting to hear today about how our 
Nation has made advances, but still needs to strive for better 
preparedness.
    In listening to the testimony this morning, we have made 
some progress, most impressively in first responders and 
sharing of information to deal with potential threats and 
actual emergencies. In other areas, we still need improvement. 
Some of it is due to new agencies. Secretary Chertoff as well 
as your predecessor have built a new agency, and I understand, 
Admiral McConnell, that the DNI has only existed for 2 years.
    But in too many areas, we have seen a real lack of urgency. 
The fact that there appears to be no real effort to track 
individuals who overstay their visas, for example, is 
particularly shocking and troubling to me, especially when we 
try to address the immigration problems we face, as well as the 
homeland security problems we face.
    The fact is there are still gaps, huge gaps. The security 
of our food supply needs to be addressed. Director Mueller and 
others, I think that you folks have got it absolutely right 
when you talk about the threat of complacency in this world 
post-September 11, 2001.
    I would like to also talk a little bit about the men and 
women of our Customs and Border Patrol. I have had a chance 
over the years to visit with many of them who work the Northern 
Border that Montana shares with Canada. They work very hard, 
but too often many of them are overwhelmed with staff shortages 
and other personnel matters that can limit their ability to do 
their job. As you gentlemen point out, they need to be right 
every time, while a terrorist only needs to be lucky once.
    We have seen the GAO investigators that have been able to 
bring certain radiological materials across the Northern 
border, and we have seen potential terrorists attempt to cross 
into the United States through the Northern border. And as I 
understand it, we are about 1,722 Customs officers and 488 
Border Patrol officers short on the Canadian line. I can tell 
you, my staff and I have heard a lot of complaints from folks 
trying to cross the border, DHS employees, from constituents 
traveling through these border crossings.
    I will start my questioning with Secretary Chertoff, and 
that is, from your perspective as head of the Department of 
Homeland Security, what is the plan for getting staffed up at 
the Northern border?
    Secretary Chertoff. Well, first let me say, Senator, that 
we--I guess when the President started his term, we had about 
9,000 Border Patrol agents. As of last week, we are at about 
14,400, and we are on track to being at 18,300 by the end of 
next year. So we are going to be doubling it.
    Obviously, the largest element of the Border Patrol has 
gone to the Southern border, and that is because between the 
ports of entry 98 to 99 percent of the illegal crossings are 
the Southern border rather than the Northern border.
    What we try to do on the Northern border is use air asset 
sensors and high-tech equipment as a way of getting a broader 
sense of who is crossing the border so we can deploy assets 
more efficiently.
    I think we are on the way to having several air wings stood 
up along the Northern border, which will give us better 
coverage in terms of airframes.
    I do envision some number of the new Border Patrol agents 
who are being added will be going to the Northern border, 
although I will tell you that the lion's share of those will be 
going to the Southern border.
    What is particularly promising is as we work on what we 
call our SBInet, which is a combination of ground-based radar 
and cameras, we are currently operationally testing down at the 
Southern border. That will eventually be a tool that we use at 
the Northern border as well.
    Senator Tester. And I appreciate those efforts. I can just 
tell you that--and I know the focus is on the Southern border 
and for good reason. But I live 100 miles south of Medicine 
Hat, which is about 70 miles south of the Canadian border, 60 
miles south, and I can tell you that it is fairly common 
knowledge, I mean, there is work that needs to be done there. 
So I really appreciate your efforts in that.
    You talked a little bit about general aviation. You talked 
a little bit about containers. There has been some conversation 
about that. Can you give me any sort of idea on the containers 
that are coming in, commercial containers? What percentage of 
those are being tested? And do we need to put more emphasis on 
that?
    Secretary Chertoff. By the end of this year, we will be 
scanning virtually every container that comes into the United 
States by sea, at least at the port at which it enters the 
United States. Also, pursuant to the SAFE Port Act, we have 
agreements with seven overseas ports to do the radiation 
scanning over there. We are operational in three of them, 
including one in Pakistan. And pursuant to the new legislation, 
we are going to try to put as much of this offshore as 
possible. But first things first. We are at a minimum going to 
get it done, as I said, virtually 100 percent by the end of 
this year. I should say by the end of next year we will be 
scanning virtually 100 percent of all the containers coming in 
through the land ports of entry, including from Canada as well.
    Senator Tester. That is good. I appreciate those efforts. 
My time has expired. Hopefully I will not get waylaid and I 
will be able to get back here.
    Chairman Lieberman. I hope so. Thanks, Senator Tester.
    We are going to go to Senator Warner and then to Senator 
Coleman.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    First, I would like to say that all of us remember 
September 11, 2001 but I remember it particularly because I 
remained on Capitol Hill with a small group of Senators, and 
this fine gentleman, Robert Mueller, came up with the Attorney 
General to brief us. My recollection was it was early 
afternoon, and you shared with us everything you knew at that 
time. And I look back on what few facts you were able to 
convey, and I see before us today a team of four of the finest 
public servants, most of whom have come in from other positions 
to serve once again in public office. And I have a great deal 
of confidence in this team and their ability to protect 
America.
    I, for one, think we are going a long way towards 
protecting this country, certainly much beyond what you were 
able to convey on the morning of September 11, 2001. Am I not 
correct, Mr. Mueller?
    Mr. Mueller. Yes, and thank you for your comments, sir.
    Senator Warner. Thank you.
    Gentlemen, I hold up here two cards: One is my Virginia 
driver's license and the other is my Senate ID. Now, this 
license is not unlike those in all the other States, and it was 
skillfully fabricated by several of the September 11, 2001 
perpetrators. This Senate ID involves high-tech and, as far as 
I know, cannot be fabricated.
    Now, the question comes about the REAL ID program. I 
consider it one of the highest priorities. I join with my 
colleagues Senator Collins, Senator Voinovich, and others to 
try to get the funding necessary to help the States begin this 
program.
    We lost by only six votes. A swing of four votes could have 
made that difference. I hope that we repeat that effort in the 
near future, but I would like to ask each of you, given your 
dramatic statements here this morning, particularly about al-
Qaeda and the threat to this country, where you ranked the REAL 
ID Act as a priority program. And do you fully or equivocally 
endorse it? Secretary Chertoff.
    Secretary Chertoff. Well, Senator, as you know, under the 
REAL ID Act, we are bound and we are pushing very hard to get a 
nationally secure identification. We also have a similar 
complementary program for travel within the Western Hemisphere 
called the Western Hemisphere Travel Initiative. I think this 
is one of the three or four really big items I want to get well 
launched before the end of this President's term. I think it is 
at the highest rank of priority, and----
    Senator Warner. That will help me. I want to try and get 
each one's opinion here. Admiral McConnell.
    Admiral McConnell. Sir, fully endorse. It is absolutely 
needed.
    Senator Warner. High priority?
    Admiral McConnell. Yes, sir.
    Senator Warner. Admiral Redd.
    Admiral Redd. Same thing. Fully endorse. We need to get to 
the point where we can tell yes or no, this is the individual.
    Senator Warner. Director Mueller.
    Mr. Mueller. Anyone who has read the 9/11 Commission report 
understands the utility that the hijackers put to use these 
IDs, would understand the necessity and the importance of this 
program. I absolutely support it.
    Senator Warner. Highest priority?
    Mr. Mueller. High priority.
    Senator Warner. We have discussed al-Qaeda here this 
morning, and several of us serve on the military intelligence 
committees. We have a lot of discussion about that 
organization, and you have mentioned it, certainly, each of you 
today. Can each of you tell us what you can so that the 
American public has a little better understanding to what 
extent they are making efforts to take actions here in this 
country, and to what extent, if any, they have, should we say, 
chapters or splinter groups or self-appointed al-Qaeda in the 
United States? Let's start with you, Secretary Chertoff.
    Secretary Chertoff. To be brief, Senator, they are still 
intent on carrying out acts against the United States, 
preferably in the homeland; if not, against American interests 
elsewhere. I think they are looking both to develop operatives 
so that they can launch from overseas. They are also, I think, 
hoping to radicalize those within this country. They have been 
less successful in the latter respect here than they have in 
Europe, but it is a growing issue.
    Senator Warner. Fine. Admiral McConnell.
    Admiral McConnell. Sir, they have committed leadership that 
can adapt. They have safe haven for training. They have middle 
management for organization, training, and preparation. The 
thing they need the most are operations personnel. We watched 
them recruit. We watched them bring them to Pakistan, that 
border area between Pakistan and Afghanistan, to train them in 
things like liquid explosives and so on.
    So the intent is clear. They have not yet been successful 
infiltrating back in the United States.
    Senator Warner. As an organization, do you think they are 
as strong as they were on September 11, 2001, or much stronger?
    Admiral McConnell. They have regained a significant level 
of their capability. I do not think they are as strong because 
they commanded so much and were so much larger before the 
invasion of Afghanistan, and they had a country to operate 
freely in. So they are in an area that makes them difficult to 
get to, so I would say significant capability but not as strong 
as September 11, 2001.
    Senator Warner. And due to the successful efforts of our 
military and many others.
    Admiral McConnell. Yes, sir. Our military, and 
collaboration also with the Pakistani military.
    Senator Warner. Admiral Redd.
    Admiral Redd. I would just agree that this strategic intent 
is unchanged, and in terms of the homeland or groups here 
inside the homeland, obviously that is what we spend every day 
looking at. If we know they were here, obviously they wouldn't 
be here, they wouldn't be effective. But we work extremely 
close with the FBI and across the intelligence community to 
make sure that any piece of information--and it may come from 
somewhere well outside our borders, which could indicate that.
    Senator Warner. In the domestic arena, Director Mueller, 
what can you share with us?
    Mr. Mueller. I look at it in three tiers: Core al-Qaeda in 
Waziristan, the border area, Afghanistan, and between 
Afghanistan and Pakistan where individuals were being trained; 
and the desire of al-Qaeda to insert such individuals in the 
United States as being a tremendous concern.
    Second, you have loosely affiliated groups who may get some 
training but do not have the planning necessarily, 
orchestration from core al-Qaeda. The takedown in Germany, 
Denmark most recently, London, and Madrid are examples to a 
certain extent of loosely affiliated groups, of which we have 
got concern.
    With those two groups, the biggest concern we have is those 
coming in from Europe who may have been trained and be inserted 
either by core al-Qaeda or undertake attacks in the United 
States without the planning or financial backing of core al-
Qaeda.
    And the last tier is those who are self-radicalized, those 
in the United States who do not have ties overseas with al-
Qaeda, but adherence to that ideology. Miami and the Fort Dix 
plot are just a couple of examples of that.
    We do have individuals in the United States who adhere to 
that ideology, that extremist ideology, and we work with our 
counterparts to make certain that we identify. We, after 
identification, determine to what extent there are other 
participants either here or overseas, and then work to disrupt 
those plots, and we mentioned some examples of that.
    Senator Warner. I thank the panel. I thank the Chairman.
    Chairman Lieberman. Thank you very much, Senator Warner. 
Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman. I want to 
associate myself with the comments of my colleague from 
Virginia, and thank you, gentlemen, for your service.
    We have clearly gotten past the silo mentality, and I think 
it should raise the level of confidence, understanding that 
this is a race without a finish line. I remember, Secretary 
Chertoff, in your confirmation when you said you have got to be 
right 100 percent of the time, and a single failure is 
something we cannot afford.
    Let me follow up on the question that my colleague from 
Virginia talked about, the level of the threat. Director 
Mueller, you kind of broke it into three parts. When we look at 
homegrown, which is I think what we were seeing in Germany, 
first let me step back. Do we have the tools, do you have the 
tools that you need to identify the threats early on? Is there 
anything that you need in terms of the ability to surveil, the 
ability to respond, that you do not have today that this 
Congress should offer you? Secretary Chertoff.
    Secretary Chertoff. I think at this point, from the 
standpoint of my agency--and I think Director Mueller can maybe 
talk a little bit more specifically about the Bureau--we do 
have the tools we need, including information and our ability 
to screen. I worry, however, that those tools not get taken 
away from us. I worry that people not start to degrade what we 
have spent time building up.
    Senator Coleman. Is that in particular the PATRIOT Act?
    Secretary Chertoff. Well, I am thinking particularly about 
some of our capabilities with respect to screening people as 
they come to the border, our ability to move to more biometric, 
fingerprint-based screening, and what Senator Warner said about 
identification cards. I mean, we are moving to get more secure 
identification. If we move backwards, that is going to make it 
harder rather than easier to detect problems.
    Senator Coleman. Admiral McConnell, we just dealt with 
FISA, which is a temporary piece. That is not a final fix. Do 
you have the tools? And if not, what else do you need?
    Admiral McConnell. Sir, that is what I was going to 
mention, FISA, and it was a temporary fix. Some are of the 
belief that this community is spying on Americans, doing data 
mining and so on; that is simply not true. And so the debate 
with FISA gave us partially what we needed. So that debate is 
going to continue over the next few months, and if we lose 
FISA, we will lose, my estimate, 50 percent of our ability to 
track, understand, and know about these terrorists, what they 
are doing to train, what they are doing to recruit, and what 
they are doing to try to get into this country.
    Senator Coleman. Admiral Redd.
    Admiral Redd. I would agree, obviously, with all these 
comments. I would just mention there is another way that we can 
lose tools, and that is through leaks. These are methods which 
are extremely sensitive, and we have to be very careful, 
particularly when we have had a success somewhere, that people 
do not start thinking that it is okay to talk about how we did 
it because those are very sensitive and very fragile in some 
cases.
    Senator Coleman. Director Mueller.
    Mr. Mueller. I would not talk so much in the way of tools 
as such, but in terms of understanding the importance of State 
and local law enforcement to our success, it is often 
overlooked because it is perceived in some way as being 
quintessentially a Federal problem. But every one of the cases 
we have made have been made by Joint Terrorism Task Forces 
where State and local law enforcement are absolutely essential 
participants.
    To the extent that we develop sources in communities, it is 
State and local law enforcement that assist us developing those 
resources.
    Senator Coleman. I was going to follow up with that 
question. By the way, let me ask you, are those efforts 
adequately funded?
    Mr. Mueller. I would say that we have to keep an eye that 
they continue to be adequately funded, particularly with the 
uptick around the country for violent crime. If you talk to a 
police chief or a sheriff, their concern is responsiveness to 
their community on violent crime, but it is absolutely 
essential to our success to harness the 700,000-plus State and 
local law enforcement around the country through the Joint 
Terrorism Task Forces or other mechanisms. And so I do believe 
as there is momentum to provide funding to address violent 
crime, we should not forget the necessity of utilizing and 
funding efforts by State and local law enforcement to continue 
to address the terrorism threat.
    Senator Coleman. In addition to the State and local law 
enforcement focusing on the homegrown or even loosely 
affiliated--my background is as a former prosecutor--prisons 
are breeding grounds for gang violence. Are we looking at 
prison grounds as a breeding for terrorist activity? And do we 
have the tools to deal with that? Secretary Chertoff.
    Secretary Chertoff. Actually, that is one of the first 
areas that we did look at because we had exactly the same 
insight that you did, that has traditionally been an area where 
you bring together people who are predisposed to break the law, 
many of whom are violent. They have time on their hands, and 
this can be a dangerous mixture.
    We have done a lot of work with the Bureau jointly in 
places like California and New York, which are also doing a lot 
of work themselves, and we are working also with correctional 
systems not only at the Federal level, but in other States to 
talk about first of all identifying the problem, figuring out 
ways to reduce the problem, making sure there is adequate 
screening of people who are coming into prisons claiming to be 
religious leaders, to make sure they are not there actually 
promoting a brand of indoctrination that would create a danger. 
And I think this is an area of continued concern for all of us.
    Senator Coleman. Anybody else want to respond to that? 
Director Mueller, is that an area you are looking at?
    Mr. Mueller. Yes. We, for several years, have had an 
initiative that looks not just at the Federal system, which is 
fairly easy to take care of, since they are also in the 
Department of Justice, but in the various prison systems at the 
State and local level. And in several of our Joint Terrorism 
Task Forces, we have representatives of the State prison 
systems that participate on a daily basis to address that 
ongoing concern.
    Senator Coleman. Mr. Chairman, my time is up. I have a 
whole other area of inquiry on smuggling nuclear material. We 
are going to have at least a second round here?
    Chairman Lieberman. I hope so. Yes, indeed.
    Senator Coleman. Thank you.
    Chairman Lieberman. Please come back. Thanks, Senator 
Coleman.
    Admiral McConnell, at the risk of editorializing, which is 
a risk I will assume, I just want to come back and say by way 
of punctuating what you have said this morning, you said in 
response to my question earlier that the authority that the 
FISA reform law gave you helped you--us--assist the Germans in 
breaking up that terrorist group in Germany.
    Second, you have just testified in response to Senator 
Coleman's question that if you lost the FISA authority, you 
would lose 50 percent of the information capacity you have to 
gather about what terrorists are doing and planning to do to 
us. That is very compelling testimony.
    I want to yield to Senator Voinovich because we are on the 
clock, but I want to thank you for it. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    As Woody Hayes once said, ``You win with people.'' In my 
mind, the real issue is having the right people with the right 
knowledge and skills at the right place and at the right time. 
And I think anybody listening to the four of you this morning 
has to be impressed with what we have heard.
    During consideration of the Intelligence Reform and 
Terrorism Prevention Act of 2004, I underscored my belief that 
the interpersonal skills and the relationships between the 
leadership within the intelligence community was just as 
important as the organizational structure.
    I want to commend all of you for working together. I am 
concerned about the continuity our intelligence community will 
have over the next several years as we transition to a new 
administration. I think this is something that all of us should 
give a great deal of consideration to.
    Several years ago, we had testimony from State and local 
enforcement representatives who observed poor information 
sharing between Federal, State, and local government. I want to 
tell you there has been considerable improvements in this area. 
The Joint Terrorism Task Forces in Cincinnati and Cleveland are 
examples of this improvement, and you all ought to feel very 
good about that, Director Mueller.
    Even with the increased resources and better information, I 
think that we must remember that in 1998 Osama bin Laden made a 
fatwa, or a religious decree, effectively declaring war on the 
United States. He declared war on us in 1998, stating ``The 
ruling to kill Americans and their allies--both civilian and 
military--is an individual duty for every Muslim who is able, 
in any country where this is possible.''
    After reading the National Intelligence Estimate, we know 
the threat continues. I sometimes look back and wonder if we 
had taken the resources that we put into Iraq and had sent them 
to Afghanistan how far ahead we would be today from where we 
were then--although we have made, according to what you have 
said to us, some real progress.
    My concern is how our Federal agencies are working together 
to reduce radicalization in the United States while at the same 
time ensures our democractic principles are unheld. Director 
Mueller, I have spent a lot of time talking to Muslims in Ohio, 
and one of their big complaints is on that. They feel that they 
are being unfairly profiled. I think that this is something 
from a dignity we must continue to work on.
    [The prepared statement of Senator Voinovich follows:]
                PREPARED STATEMENT OF SENATOR VOINOVICH
    Mr. Chairman and Ranking Member Collins, I commend you both for 
convening today's hearing regarding our national security and the 
threats posed by terrorism to the U.S. homeland. On the eve of the 
sixth anniversary of the tragic and violent terrorist attacks of 
September 11, 2001, I know the question on many Americans' minds is: 
``Are we safer?'' Although security is difficult to measure or 
quantify, the American public should be reassured that we are indeed 
safer.
    The United States is at war against a transnational terrorist 
movement fueled by radical extremists who seek to harm us and our way 
of life. These individuals will continue to adapt and attempt to find 
new ways to disrupt our security. It is our responsibility as Members 
of Congress to thwart their efforts by providing the necessary tools to 
our national security personnel for mission success. This investment 
will continue to yield great dividends, as I strongly believe that 
strengthening our intelligence gathering capabilities is the first and 
best line of defense against potential terrorist activity.
    Woody Hayes often said that, ``you win with people.'' If you do not 
have the right people, with the right skills, in the right job, at the 
right time, no organization will meet its goal. The men and women of 
our law enforcement and intelligence communities have made great 
strides in cooperation in pooling resources to better counter threats 
posed by terrorists. The public is aware of at least several recent 
instances of intelligence and law enforcement personnel successfully 
disrupting terrorism plots including at John F. Kennedy Airport in New 
York and at Fort Dix in New Jersey. The U.S. homeland has been free 
from attack for six years; a fact we surely owe in part or in its 
entirety to the men and women working for the agencies represented 
today.
    While we can enact legislation and authorize funding to minimize 
risk, it is an uncomfortable truth that we can never fully eliminate 
it. Thus, we must use common sense in developing future legislation to 
ensure our limited resources are allocated based upon risk assessments 
grounded in credible intelligence and analysis.
    Several years ago, this Committee heard testimony from state and 
local law enforcement representatives who observed poor information 
sharing between the Federal, State and local government. Since that 
time, we have witnessed the positive development of State and local 
fusion centers throughout the country, with Federal agencies engaged in 
counterterrorism activities working together on a larger and more 
productive scale then ever seen before. For example, in my home State, 
the Ohio Strategic Analysis and Information Center, which partners with 
DHS and the FBI, has been positively regarded as a ``one stop shop'' 
for terrorism-related law enforcement information.
    Even with increased resources, better information sharing and 
cooperation among agencies and across all levels of government, the 
threat remains real, and we must remain vigilant. In 1998, Osama bin 
Laden made a fatwa, or religious decree, effectively declaring war on 
the United States. He said: ``The ruling to kill Americans and their 
allies--both civilian and military--is an individual duty for every 
Muslim who is able, in any country where this is possible.'' Almost a 
decade later, the threat from Osama bin Laden and al-Qaeda is still 
very real.
    A significant challenge that remains is improving the Federal 
Government's ability to recruit and train skilled translators and 
linguists to meet our national security needs. Significant progress has 
been made in this area, but we need to do more to raise the proficiency 
of our intelligence and law enforcement personnel in critical foreign 
languages and cultures. Earlier this year, the Subcommittee on 
Oversight of Government held a hearing to examine our national level of 
foreign language proficiency. Unfortunately, the hearing revealed a 
shortage of Federal employees with proficiency in critical languages. 
Thus, I am anxious to hear from our witnesses about progress in this 
area.
    In addition, our clearance processing system remains broken, 
limiting the ability of our national security agencies to meet their 
heightened mission requirements. The Subcommittee on Oversight of 
Government Management began its oversight work on the security 
clearance process during the 109th Congress because of our concern with 
the long standing backlog of security clearances and the cumbersome 
process that hampered the Federal Government's ability to clear highly 
skilled employees in a timely manner. I would remind my colleagues that 
this program has been on the Government Accountability Office's High-
Risk List since 1990. The first timeliness milestones set forth in the 
Intelligence Reform and Terrorism Prevention Act for security clearance 
reform are behind us, but we still have a long way to go if we are to 
make meaningful improvements in this critical area. Accordingly, I look 
forward to learning when the new process outlined in Director 
McConnell's 100 Day Plan will be operational.
    I would like to thank our distinguished panel for sharing their 
thoughts and time with the Committee.

    Senator Voinovich. I would like to hear more about what 
other things are we doing to try and eliminate this receptivity 
to Muslims in various parts of the world to Osama bin Laden's 
extremism.
    Admiral Redd. Senator, I could give you sort of a top-down 
view, if that would help. I mentioned, too, in my remarks the 
National Implementation Plan, which is, for all intents and 
purposes, the Nation's war plan, if you will, for the war on 
terror. As you expect, it has stuff like protect and defend the 
homeland and go after the terrorists, but one of the key 
pillars in there is countering violent Islamic extremism. And 
so, that is recognized as one of the strategic musts or 
imperatives, for us as a government. If you go through that 
plan and you look at all the tasks that are assigned to the 
various Cabinet officers, almost 30 percent of them or a third 
of them are assigned to the State Department for exactly that 
reason.
    So the short answer is yes, it is recognized. It is, as you 
understand, a very difficult problem. We have an analytic group 
at NCTC which works with the rest of the community in terms of 
what the messaging is. And as you indicated, there is no 
surprise in al-Qaeda's ideology. They have been very clear 
about it and very public about it from the very beginning. But 
in terms of how you message that and how that is broken down, I 
would say the State Department in fairly recent times has stood 
up a group called the Counterterrorism Communications Center 
whose job is, on a more tactical basis, to take a look at what 
is going on around the world and to start to get our side of 
the message out.
    But as you well understand, this is not just a U.S. effort. 
You and I cannot do very well in terms of countering a fatwa by 
Osama bin Laden. It has to come from Muslim clerics who have 
that capability in other parts of the world. I think that we 
are starting to see in many cases a resurgence--not a 
resurgence, but the emergence of an understanding of that and 
effects beginning, but this is going to be the generational 
part of the war, in my view. This is why this is going to be 
like the Cold War in really only two respects: One, it is going 
to last a long time; and, two, it has a strong ideological 
component.
    So I would say we recognize it, working to go in that 
direction, but this is a fairly new beast for us.
    Senator Voinovich. Thank you.
    Senator Collins [presiding]. First let me say it is 
wonderful to be Chairman again.
    [Laughter.]
    However briefly. Senator Sununu.

              OPENING STATEMENT OF SENATOR SUNUNU

    Senator Sununu. Thank you, Madam Chairman.
    Director Mueller, there was an earlier question about the 
terrorist watch list, and I wanted to follow up on that a 
little bit to get a little bit more specific information about 
the recommendations of the IG and objectives for implementing 
their recommendations.
    They made 18 suggestions. You indicated that you are 
already underway in implementing some of those suggestions. 
Could you speak to the two or three that you think are the most 
significant and describe the way that you think they will 
improve the integrity and usefulness of the watch lists?
    Mr. Mueller. Well, the two that I have mentioned before, I 
think, areas where we need to spend more effort, and that is in 
the area of quality assurance of the information. We have 
information coming through from a number of agencies that 
results in an individual's name being put on the watch list. 
What we have accomplished over the last several years, I guess, 
is put into place a quality assurance program that scrubs that 
information. It was pointed out by the Inspector General, and 
that was not working as well as it should. What we are looking 
at is adding personnel, improving training, and assuring that 
scrub is more effective and efficient than it has been in the 
past.
    The second area is in redress, giving those who are stopped 
and believe that is as a result of their name being improperly 
placed on this watch list, is to give those individuals an 
Office of Redress where you can go and determine--and ask the 
questions about whether or not your name is on it and get some 
redress. We established that office----
    Senator Sununu. How often does that happen?
    Mr. Mueller. I would have to get back to you, but I believe 
it is several hundred, the last figures I saw.
    Senator Sununu. Over a one-year period, several hundred 
times?
    Mr. Mueller. I believe it was over a one-year period. And 
what the IG focused on, it is good that you set up an Office of 
Redress. What is happening is it takes too long to get that 
accomplished. And that is an area that, again, with resources, 
personnel, and training we hope to do better at.
    Senator Sununu. Is there any particular area of law 
enforcement or particular source of information where names are 
being provided to the watch list that really should not be? In 
other words, any specific areas where the quality of the 
information provided has been especially poor?
    Mr. Mueller. No. I cannot pick any particular entity that 
contributes to the watch list and say this is more problematic. 
The problem comes in identifiers, and the problem comes if the 
name can be identifiers, dates of birth can be identifiers, and 
you can have with one individual a number of names; you can 
have a number of dates of birth associated with that particular 
name. And sorting out the information that may come in from 
overseas or may come in domestically and identifying it with a 
particular person with particular identifiers is a substantial 
challenge.
    I will tell you, I believe the latest figure I saw, 
approximately 90 percent of the names on the watch list are 
individuals outside the United States.
    Senator Sununu. You mentioned increased staffing a couple 
of times. How many more people do you expect to add to this 
task? And what is your timeline for implementation of the 
majority of the 18 recommendations?
    Mr. Mueller. I would have to get back to you on that, sir.
    Senator Sununu. OK. Please do.
    Secretary Chertoff, Senator Collins and others on this 
Committee have been very concerned about the process of 
implementing the REAL ID program. As you well know, my personal 
preference would be to have pursued aggressively the negotiated 
rulemaking, the collaborative rulemaking that was underway back 
in 2004 and 2005 prior to the passage of the REAL ID mandate.
    At the moment, however, the proposal is to publish the 
final rule in October, and October is also the deadline for 
States to file for an extension for implementation. That would 
not seem to give the States a fair amount of time to really 
assess the scope, the costs, and the changes that are necessary 
for compliance in implementation. How are you going to address 
that administrative train wreck?
    Secretary Chertoff. Well, first of all, we did put a 
preliminary rule out, and we did indicate that we would be 
quite reasonable in terms of granting extensions. The current 
plan would be in theory to have next spring be the point at 
which the process of people signing up for REAL ID licenses 
would begin. But we have indicated that we anticipate extending 
that to the end of 2009 upon a request and indication that 
States want to move forward and do that. And I think, frankly, 
a lot of States have now begun the process and have been 
seriously engaged with us in talking about what their plans 
are, including many of the major States--States like 
California, Arizona, and I think Virginia.
    So I envision that this is not going to be a problem. I do 
think if a State does not want to participate, obviously, and 
they give us notice about that, that is not so much an 
implementation issue as it is a resolve issue.
    Senator Sununu. As I understand, one of the requirements of 
the preliminary rule is that the data fields that are collected 
through the ID process would have to be made available in a 
database to all other States. That naturally raises privacy 
concerns, and I would like you to describe the way in which at 
the Federal level you intend to protect the private 
information, which I think everyone would understand needs to 
be protected in a very aggressive way.
    Secretary Chertoff. Well, first, let me make clear that we 
have tried to design this so as to maximize privacy. We 
specifically avoided creating a new Federal database that would 
accumulate information that is otherwise not there. And we have 
also worked very closely with the Association of Motor Vehicle 
Administrators. There is a model for doing this kind of sharing 
with respect to commercial driver's licenses where there is 
cross-checking among States. So we envision using that model. 
It is basically a distributed model in which States would be 
able to have access to other States' databases for purposes of 
checking, but we would not create a new database.
    I might add that one of the positive privacy benefits of 
the new rules is the requirement of background checks in DMVs. 
That is going to elevate the level of privacy. I can tell you 
historically as a prosecutor, I remember cases where people 
abused their access to existing systems for criminal reasons or 
because they saw an attractive woman going down the highway and 
they wanted to get her phone number. So we are actually curing 
that problem by putting these background check requirements in 
place.
    Senator Sununu. I appreciate your candor, and I would 
underscore that the privacy issues are issues that need to be a 
very high priority. I believe that they are with the work that 
you are doing, but it is always worth underscoring that we need 
to continue to maintain that priority status.
    Second is dealing with the cost. This is a Federal mandate. 
You mentioned a new database is not being created, but there is 
a requirement that the information be shared, and that costs 
money and carries with it risks. So we have got to recognize 
the costs associated with the program and do everything 
possible to minimize those costs. There are some people that 
would like to use the fact that it is a mandate as an excuse to 
simply increase the size of the role or the responsibility at 
the Federal level. I think that the focus should be on 
minimizing the costs, and I hope you take that to heart.
    And the third is the concern of unintended consequences, 
and that is probably my biggest concern with a program like 
this: Not that it cannot be implemented in a reasonable way, 
but that it will provide a foundation for others to use the 
program at a later date in ways in which it just was not 
intended. And it is very difficult to sit here today and to 
look 2, 3, or 4 years, or 10 or 20 years down the road and try 
to come up with ways that the program might be misused or 
misapplied or expanded in an inappropriate way. But I think 
that is something we all need to be conscious of, most of all 
those who are working to structure the program today. Thank 
you.
    Thank you, Madam Chairman.
    Secretary Chertoff. I think that is reasonable. If I might 
just for one moment.
    Senator Collins. Yes.
    Secretary Chertoff. The actual deadline for requesting 
extensions is going to be February 2008, so there will be some 
time to assimilate----
    Senator Sununu. There will not be an October deadline to 
request an extension, but a February deadline?
    Secretary Chertoff. Correct.
    Senator Sununu. Thank you.
    Senator Collins. Thank you. Thank you, Senator Sununu, for 
bringing up that very important issue. That is a major issue in 
both Maine and New Hampshire, as the Secretary is well aware. I 
think the Department went a long ways by setting up the new 
process, but I also hope that the Department is following 
through on a more collaborative approach, bringing in State 
officials, privacy experts, and technological experts to make 
sure this is being done in a way that will minimize privacy 
concerns as well as the rather extraordinary costs.
    Is that process underway as well, sort of a negotiated 
rulemaking after the fact before you get to a final rule?
    Secretary Chertoff. Well, we have done a lot of 
consultation in the run-up to the final rule that is going to 
be issued in the fall, and that includes with State officials, 
the Motor Vehicle Association, and privacy people.
    I might add as well, this kind of complements the Western 
Hemisphere Travel Initiative, and in particular, our efforts to 
get States to come up with enhanced driver's licenses that 
would satisfy that. I have myself in the last few months dealt 
with the governors of Arizona, California, New York, Michigan, 
Minnesota, and Vermont on all these issues, and States are 
increasingly signing up for enhanced driver's licenses, which 
will actually operate along a system that is very similar and 
scalable to REAL ID.
    So what I think we are now beginning to see is not only do 
we have increased engagement with the States, but we have 
increased enthusiasm on behalf of most States for biting the 
bullet to get involved with this process.
    Senator Collins. Thank you.
    Director McConnell, I want to bring up the issue of 
information sharing further with you. I think you have made 
real progress, but this was a major recommendation of the 9/11 
Commission. And when the Commission did its report card, it 
gave the government's efforts only a D as far as improving 
information sharing. Now, that obviously was before your time.
    Recently, several technology companies have told my staff 
that there are technological solutions to the barriers that 
prevent intelligence agencies from more easily sharing 
information, and there have been recent reports that the NSA, 
for example, is linking databases to encourage information 
sharing.
    But, unfortunately, we have also heard from the Program 
Manager for the Information Sharing Environment that the 
barrier is not really technological, that it is cultural; and 
that although a lot of progress has been made, that there still 
is a hesitation to share information particularly with State 
and local law enforcement.
    Do you still believe that there are significant cultural 
barriers to be overcome before we have the kind of seamless 
system that will encourage the sharing of information that 
could be absolutely vital to thwarting and uncovering a 
terrorist attack?
    Admiral McConnell. Yes, ma'am, there are still significant 
cultural issues, and where we find ourselves is attempting to 
create a situation that would adapt to the current needs. By 
that we have a responsibility to protect sources and methods. 
We have a responsibility to protect those who have agreed to 
cooperate with us in spying on someone else, whose lives would 
be at risk if the information were compromised.
    So the way I try to describe it when we are having this 
dialogue and debate in the community is we are committed to 
information sharing, but we also have a responsibility to 
protect sources and methods. So we want to try to create a 
situation where there is tension in the system. We cannot be 
prescriptive to get the perfect answer for every situation, but 
if we can create a culture where the analytical community is 
not thinking about--I have information, you have to demonstrate 
a need to know it, but my attitude as an analyst is I have a 
responsibility to provide--that puts tension in the system to 
share.
    Now, for those who recruit spies or operate very sensitive 
systems or capabilities that, if compromised, we would have a 
loss of life or lose a capability, there are people who want to 
not be as willing to share. So it is managing that cultural 
dynamic that is the big challenge. We recognize it, we are 
addressing it, and we are being very aggressive in attempting 
to transform this culture to get us to the right place.
    Senator Collins. Thank you.
    Chairman Lieberman [presiding]. Thanks very much, Senator 
Collins. Do you want to finish the time or are you okay?
    Senator Collins. I thought that since Senator McCaskill had 
not questioned----
    Chairman Lieberman. That is good of you. The remaining 
Senators who have not asked questions are Senators Akaka, 
Carper, Pryor, and McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    First, thank you all. I listened to all of your testimony 
at a different location, even though I was not physically here, 
and I do want to congratulate all of you for putting in the 
effort and the time that you do every day to try to do the very 
best job we can in terms of making this country safe.
    Unfortunately, the issue of whether or not we are safer or 
not has become colored with the brush of politics, as so often 
happens in our government, and that is unfortunate. And as I 
said the other day in a hearing, we cannot really say that we 
have not been attacked because of what we have done, because 
that is not true. Because if we were attacked tomorrow, the 
people who say that we were attacked because we failed, that 
would not be true either.
    The truth is somewhere in between. We are safer, but there 
are still gaping holes. There are still major problems, whether 
it is communication, whether it is technology, whether it is 
the struggle for ideas that we seem to be failing at around the 
world, whether it is our image in the moderate Muslim world and 
how that is undermining the ultimate struggle we have, which is 
the radicalism that we find in some parts of the Muslim world.
    I would like to focus for a minute on transportation 
security, and the reason I would like to focus there is that I 
used to say a long time ago when I was in the courtroom all the 
time that the courtroom that really mattered in terms of how we 
treated people was municipal court because that is where all 
the people came. Most people's contact with our judicial system 
has to do with going to court on a speeding ticket or something 
like that. They never have contact with what I call the 
``rarified atmosphere'' of those rooms with all the lawyers 
around a deposition table or the litigation arguments that go 
on in big Federal courthouses around the country.
    As people consider whether or not we are safer, really the 
face of our security many times is what they encounter when 
they travel. And that is where they are made to feel whether 
they are safer or not. And, Secretary Chertoff, I have been 
confused and I think the American people have been confused 
about what I would consider an inconsistent and a stutter 
start-stop in many different areas of airport screening and 
transportation security. And this seems to be a trivial 
example, but it is a great example of what I am talking about.
    We all were taking liquids until one day no one could take 
liquids anymore. Didn't we know liquids were dangerous before 
that date? And if we didn't, why didn't we? And why did it 
appear that it was a knee-jerk reaction instead of something 
that was an overarching, consistent policy that had been well 
thought out?
    Buried in that policy, after we decided liquids were 
dangerous, seems to be some kind of nonsensical thing that 
happened. And now, I was on a flight just yesterday where 
mothers were comparing notes:
    ``Well, I got my apple juice through. Did you get your 
apple juice through?''
    ``I got my formula through that was already mixed. Did you 
have to mix yours?''
    And then the one that bugs women across America, 
particularly those of us who travel a lot, the mascara. I know 
it seems small, but for most people in America, they do not 
understand why mascara is a problem. It does not appear to be 
consistent or have any kind of rhyme or reason to it, and the 
reason I think that is important is because it is the face. It 
is the face that the traveling public sees. In fact, it is the 
face most Americans see.
    So I would appreciate a little bit of input on that, and 
then I would like to ask some specific questions about advanced 
baggage screening and airlines' ability to pre-screen 
manifests.
    Secretary Chertoff. I think you have basically asked two 
questions: Why did we suddenly put in place a ban on liquids, 
which we then modified slightly? And then some particular 
elements of the ban.
    We knew that liquids were a vulnerability prior to the 
attack in London, or the attempted attack in London. We also 
were working hard to come up with a technology that would 
separate out dangerous liquids from non-dangerous liquids, and 
we had not found and have not yet found a technology that will 
do that in real time, meaning we can do it if you take a bottle 
and put it in a device, but if you multiply that by the 
millions of people who travel every day, it would be 
impossible.
    What I think the London plot brought home to us was that 
the enemy had not only focused on liquids but had come further 
along in coming up with ways to defeat the measures we were 
using of a non-technological basis to detect potential 
problems, and that was in particular a focus on detonators as 
opposed to liquids themselves. And some of the measures we were 
taking to inspect liquids, without getting into too much detail 
here, were clearly--the enemy had figured out a way to 
potentially defeat it.
    So having recognized where the enemy was, we determined 
that at that point the risk balance had changed. Our initial 
response was, of course, to make this happen very quickly. It 
had to be done in about 6 hours in a very--in an overnight 
session which I participated in. And then ultimately, after 
some careful study, again balancing the risk, we determined 
that a 3-ounce rule where you put 3-ounce containers in a 1-
quart clear plastic bag was the right mix. It made it 
impractical to smuggle in explosives, but would allow people to 
bring in things that they like to have on airplanes. We did 
coordinate this, by the way, with the Europeans, and I think 
this will remain in place until such time as we are confident 
enough operationally that we have detection equipment that we 
can loosen up.
    Now, I can tell you, for example--let me say two things. 
The general rule is if it pours or smears, it is a liquid, and 
it has to go in that plastic bag. That is the simplest way I 
can put it. Sure, you can always come up with an example of 
something that is at the margin, but we have to come up with a 
rule that can be applied consistently across the board.
    Do people sometimes succeed in smuggling things past the 
screeners? Sure they do. People sometimes smuggle drugs into 
the country. No system works 100 percent. But even if we are 
working 90 percent, that is a huge barrier to the enemy which 
is planning to try to smuggle something on an airplane.
    So I think we have the balance struck right there. We 
obviously would love to get the technology in place, but I am 
not going to do it until I am confident it meets operational 
requirements.
    Senator McCaskill. Can you briefly, since I am just out of 
time, talk about why we are now estimating that it is going to 
be 2024 before we get advanced baggage screening in place 
across this country? And what about the airlines being able to 
effectively screen their manifests with the sharing of 
information?
    Secretary Chertoff. Well, the first thing is that we 
obviously do screen all the baggage currently now that goes in 
the hold of the airplane. We do it in a variety of different 
ways. Some of it is in line; some of it is not in line.
    One of the challenges we have that is probably a little bit 
beyond the scope of the hearing is recognizing that the 
technology is changing and we need to find a method of 
financing and acquiring the technology that does not require 
billions of dollars in investments in equipment that becomes 
obsolete in 3 or 4 years. It is a little bit like having to 
keep buying your PC over and over again. It gets irritating 
after a while.
    On the issue of screening the manifests, under Secure 
Flight, assuming Congress funds the request that we have made 
in the current budget, by the end of next year we should be 
doing all the manifest screening ourselves as you take it in, 
which will eliminate one of the real irritants, which is that 
when we take people off the watch list, the airline does not 
necessarily do it. So assuming we get the money from Congress, 
we should get that done by the end of next year.
    Senator McCaskill. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator McCaskill.
    I have been impressed, as others have this morning, by the 
reports that the four of you have given us about the progress 
we have made in closing some of the operational gaps on our 
side and in adjusting to meet an ever-changing enemy, and part 
of that is obviously prevention.
    There is another side to this prevention of acts of 
terrorism carried out by Islamist extremists, and that is what 
has come to be called the battle of ideas, the battle for the 
hearts and minds of the Muslim world.
    I know there are some programs in the State Department that 
are directed toward entering that battle globally, but what 
about here at home? I do not know that any one of you is 
expected to play that role. I must say I have been impressed, 
Director Mueller, in our own series of hearings on the threat 
of Islamist radicalization here in the United States that the 
FBI has done some very significant outreach to the American 
Muslim community.
    But let me start at this end of the table and work back to 
Secretary Chertoff. Are we effectively fighting the battle of--
maybe I should go back one step further. You alluded to this in 
your opening statement. Do we have a problem of Islamist 
radicalization here at home? And if we do, what are we doing as 
the government working with the Muslim community to try to 
engage on the level of ideas and ideology? Because this is a 
war, but it is ultimately a war against and with an ideology 
that is inimical to our own values of freedom, tolerance, and 
diversity.
    Mr. Mueller. To the question of whether we do have a 
problem, I would say we do. It would be irresponsible to say 
that we do not. And if you look at some of the groups that we 
have investigated over the last couple of years and ultimately 
disrupted and prosecuted, you have to say yes, we do have a 
problem, particularly with the ubiquity of the Internet now and 
the ability for one to access anyone around the world who spews 
this radical ideology.
    In terms of programs, as I have alluded to and I think you 
have held a hearing on--since September 11, 2001, we have had 
any number of ways that we undertake outreach to the Muslim 
American community, Arab American community, and Sikh American 
community. And that has been effective in the sense of working 
with these communities to understand the FBI, but also working 
with communities to develop ways, generally in local 
jurisdictions, to address the radicalization issue.
    When I meet with Muslim leaders, the one point that we try 
to make is that the worst thing that could happen to the Muslim 
community here in the United States is another attack such as 
September 11, 2001. And so a great deal of activity that has to 
be undertaken to address this has to be done by the Muslim 
community itself and a recognition by the Muslim community, 
99.9 percent is as patriotic and American as anybody else in 
this room or elsewhere, but to identify those individuals who 
may be subjected to that type of tutoring and the like, and to 
address it themselves or alert us that this may cause a 
problem. And that is within our particular bailiwick.
    Chairman Lieberman. Let me ask you this, and then I will 
move on to anyone else on the panel who wants to answer. Do you 
take it to be in any sense the responsibility of the FBI to 
engage in this battle of ideas here at home within the Muslim 
American community?
    Mr. Mueller. Put that way, I would say no, that it would 
not be our responsibility for any religion to engage in the war 
of ideas. I do think it is our responsibility to explain that 
once one goes over the line and it becomes not a war of ideas 
but a criminal offense, this is what you can expect, and to 
elicit the support of those in whatever religious community to 
assist us in assuring that those who cross that line are 
appropriately investigated and convicted.
    Chairman Lieberman. Thanks. Admiral Redd or Admiral 
McConnell, do you want to add anything on this subject, which 
is the battle of ideas?
    Admiral Redd. I would just make the point, which I think we 
had another discussion, that if you understand that this is 
obviously a long-term issue which is going to be with us for 
some time, and the fact that strategic planning, the strategic 
operational planning is not very glamorous, nonetheless what we 
have done as a government is something which is, I think, very 
foundational, and gone through and laid out the war on terror, 
and one of the four pillars in that war actually is countering 
violent Islamic extremism, the war on ideas. It goes through, 
lists a number of tasks, assigns those tasks to different 
Cabinet officers----
    Chairman Lieberman. Who is doing them domestically?
    Admiral Redd. The domestic part is probably the hardest 
part, and as you have just noted, we do not have a home office, 
per se, as the Brits do.
    Chairman Lieberman. Yes.
    Admiral Redd. Primarily it is DHS and the FBI in their 
various roles. But overseas and obviously the other problem is 
how do you split this apart because something that is on the 
Internet does not stop at the water line, obviously.
    Chairman Lieberman. Correct.
    Admiral Redd. So as you know, the State Department in 
recent days or recent months has stood up a group to get our 
counter-messaging out. But, again, the key to this thing is, 
one, it is going to be a very long battle; two, it is not just 
an American issue. It has to have the support of governments 
and of Muslim clerics around the world.
    Chairman Lieberman. Admiral McConnell, Secretary Chertoff, 
my time is running out, but I want to give you each a chance 
briefly to respond.
    Admiral McConnell. Senator, I think it is an excellent 
question and a very critical question, and the community I 
represent is primarily limited to foreign. If it doesn't have a 
foreign nexus, foreign focus----
    Chairman Lieberman. Right.
    Admiral McConnell. Even if there is a domestic situation, 
the intelligence community would only be engaged if the 
domestic situation was in contact with, influenced by someone 
in a foreign dimension. So our community is focused on foreign.
    We contribute analytically to understanding. We would make 
that information available to policymakers who may be able to 
use it. But we are for the most part limited to foreign.
    Chairman Lieberman. Secretary Chertoff.
    Secretary Chertoff. I do not want to repeat what others 
have said. Let me be specific about what we do.
    We have what we call an Incident Management Team, which is 
chaired by the head of our Civil Rights and Civil Liberties 
Office. When there is an event in the world at large or 
domestically that we think will have an impact on the Islamic 
community because there is a terrorist element to it, we in 
advance, to the extent we can, of it becoming public, convene a 
group of community leaders, give them a heads-up, work with 
them to try to make sure that the community is reassured that 
this is not going to become a general problem for the community 
at large.
    In addition, we do quite a bit of aggressive outreach. I do 
it personally. I meet with community leaders. We had a group 
of, I guess, people in their early 20s that we convened for a 
conference that I had an opportunity to deal with, as well as 
going around and traveling around the country.
    I will say I have kind of a bottom-line thing I say to the 
community. It is a battle of ideas, and in the end, when you 
are trying to counteract radicalization that is directed at 
people within the Muslim community, the people who are best 
situated to counteract that is the community itself.
    Chairman Lieberman. Right.
    Secretary Chertoff. They do not want to hear the government 
argue theology. What they want to hear are community imams and 
community leaders arguing theology. And so one of our big 
pushes is to get the community to step up and get more involved 
in the process of counter-radicalization.
    Chairman Lieberman. I could not agree more. When somebody 
like bin Laden puts out a tape, or Zawahiri, obviously it is 
one thing for somebody from the U.S. Government to respond, but 
the really credible response would come from some leadership 
within the Muslim community. I thank you for your answer.
    Senator Stevens, I know you are in the middle of another 
meeting, but I would be happy to call on you now.

             OPENING STATEMENT FOR SENATOR STEVENS

    Senator Stevens. Well, thank you very much, Mr. Chairman. I 
am, and I wanted to come to ask the Director one specific 
question, and that deals with the attempts to give some type of 
immunity to those providers of telecommunications to respond to 
the government's requests for information. What is the status 
of that, Mr. Director? And how important is it for us to finish 
that and make a decision on that?
    Admiral McConnell. Senator, thanks for the question. It is 
absolutely essential, and the status currently is we have a 
temporary reprieve that is prospective, meaning going forward. 
So in the law that was passed and signed by the President on 
August 5, there is liability protection for those in the 
private sector who assist us going forward. We do not, however, 
have liability protection for the carriers or the private 
sector that assisted us in the past, and that is the key 
element we have to address in the coming months.
    Senator Stevens. Have you lost any of the cooperation you 
had in the past because of that hiatus?
    Admiral McConnell. Not at this moment, but we are on a path 
to lose all that cooperation. That was clear as we were 
negotiating over the summer.
    Senator Stevens. What is the deadline? We are marking up 
the defense bill this week, I believe, and other bills that 
have looked at this issue before.
    Admiral McConnell. Yes, sir. If we could get retroactive 
liability protection in the current time frame, it would put us 
in a very good position going forward. That is the key issue.
    Senator Stevens. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Stevens.
    Now, still on a first round for a couple of our colleagues, 
Senator Akaka, you would be next, followed by Senator Carper.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Even at 
this time I want to add my welcome to our witnesses here, and I 
would like to ask Secretary Chertoff about the DHS proposal to 
create a National Applications Office.
    Let me preface my remarks by saying that I recognize the 
value of using imagery to improve our ability to prepare for 
and respond to disasters. It was at my initiative that the 
Office of Geospatial Affairs was created in the Department. 
Leaving a blueprint of critical facilities is important to our 
first responder community. However, at this point in time, I am 
concerned about the privacy impact of the new proposal to 
expand the Department's surveillance in the United States. I am 
also disturbed by the Administration's failure to consult with 
relevant committees of Congress, including this one.
    After press reports revealed this program several weeks 
ago, my Committee staff asked for a briefing on the issue, but 
to date, the Department has failed to respond to this request. 
This raises further suspicions concerning the Department's 
intent. It is not clear what this new office will do.
    Do national applications mean national technical means? As 
you know, national technical means include a much broader range 
of capabilities than just satellite imagery. Is this the case, 
Mr. Secretary?
    Secretary Chertoff. I am glad, Senator, for the opportunity 
to clarify something which has probably become a little bit 
more obscure than it needed to be.
    First of all, I apologize if there has been a delay in 
briefing you. I know well in advance of this rolling out, a 
number of committees were briefed. We probably did not brief 
all that we should have briefed, but we did brief the 
intelligence committees, the appropriating committees, and I 
want to make sure we complete that process.
    This is really less of a big deal than it has been made to 
appear. There has always been something called the Civil 
Applications Committee, which is basically a way in which when 
customers in the civil domain want to use our satellites to get 
imagery, they operated through this committee to task the 
satellite to do the work. And as you pointed out, the vast 
majority of that was natural disasters, things of that sort.
    I think the recommendation by outside consultants with some 
experience with the imagery a couple of years ago was that we 
were not being systematic and disciplined in the way we 
deployed these assets, and so the determination was made to 
take the cost of the Civil Applications Committee and have DHS 
become the executive agent, basically essentially Executive 
Secretariat of what used to be the Civil Applications Committee 
but what is now going to be renamed the National Applications 
Office. It is chaired jointly by Director McConnell and myself, 
and it will involve the participation of all the stakeholders. 
And what it is designed to do is create a disciplined way for 
prioritizing how these imagery assets are used when they are 
requested by a civil agency.
    Here is the critical point from a privacy standpoint. None 
of this changes any of the authorities or restrictions that are 
applied to the use of these means one iota. There is no 
suggestion here that this Applications Office is going to make 
it--is going to lift any restrictions or create any exceptions 
or circumvent any of the existing rules that currently govern 
the use of these means in various kinds of contexts.
    Lawyers have been involved in designing this from the very 
beginning. Lawyers will be involved in the process of dealing 
with any request to use these means. And the bottom line is the 
authorities and restrictions that are currently in place will 
remain in place in every respect moving forward.
    Senator Akaka. Secretary Chertoff, the domestic use of 
national technical means raises very serious privacy and civil 
liberty issues. As you know, privacy and security safeguards 
must be built into any program at the beginning. While I 
understand that DHS' Chief Privacy Officer has issued a Privacy 
Impact Assessment, which is now being revised, I am curious as 
to whether the DHS Privacy Advisory Committee has reviewed and 
commented on the program. If so, what were its views?
    Secretary Chertoff. Well, as I said, the Privacy Officer 
and the DNI's Civil Liberties and Privacy Officer were involved 
as of last fall in designing this program. Now, obviously the 
program is classified so the ability to share the details of it 
on the outside is a little bit restricted. But, again, let me 
try to make clear that the vast majority of uses one can 
envision here involve uses that have been of long standing. 
They involved, for example, imagery of things that people are 
doing out in the open in places that are visible to the naked 
eye or to an airliner flying overhead. And, in fact, although I 
think we are better than Google Earth, I do not think it is 
terribly different than Google Earth.
    So I do not think any of these raise novel privacy issues. 
What we have tried to do, though, is build a process and to 
make sure that if we should wind up with an unusual 
application, we do not step over the line. And the process is 
built to have lawyers reviewing this at every stage of the 
process, much the same way as any other methodology or 
technique we might use for purposes of homeland security or law 
enforcement.
    Senator Akaka. Thank you for your responses. Mr. Chairman, 
thank you.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much.
    Gentlemen, thank you for joining us today and for your 
stewardship, for your service for our country, some for many 
years.
    Mr. Mueller, you talked a little bit about the no-fly list, 
and I think you said--and I think it is a quote almost--that we 
scrubbed the no-fly list and cut it in half. And to that I can 
only say good for you. We have any number of people in my State 
who have the misfortune of being given the wrong name by their 
parents, and they have ended up on the no-fly list and have 
gone through all kinds of trouble and turmoil, which I 
mentioned to at least one of you before. And every now and then 
I hear from them now, and they send not bouquets but thank-you 
notes, and it is a lot better than what we had before.
    I realize how important it is to have no-fly lists and to 
make sure that they are accurate, but I also appreciate the 
fact that the work has been done to scrub it and clean it up.
    The second thing I want to say--I think it was Admiral 
Redd, I believe it was during your comments, your testimony, 
not in response to a question. One of the things you said is 
our intelligence is better. Almost a verbatim quote: ``Our 
intelligence is better.'' And I want you to go back and talk to 
us about how is it better as it relates to the ability to get 
better human intelligence. What are we doing better in that 
regard, both inside this country and out?
    Admiral Redd. Well, I think it is hard to talk very far 
into that, obviously, for all the reasons you understand. I 
think if you saw the Washington Post yesterday, you saw that 
there were an awful lot of folks who had been taken out of 
circulation, or taken off the battlefield. I think that is one 
of a number of instances which there was basically 
demonstration of the fact that our intelligence has gotten 
better. It is not only human intelligence, it is also signals 
intelligence and other stuff. But it is very difficult to go 
into many details. And as I mentioned in another comment, we 
have to be very careful about that because some of those 
sources are very fragile.
    So I guess I would have to say look at the results. The 
terrorists are--I also said they are a very difficult target. 
You are talking about individuals. All the things we have been 
talking about here, how do you stop a single individual from 
coming across, and you do it by going after every element of 
the terrorist life cycle, starting with recruitment but through 
travel, communications, training, all the things that go on.
    In open session--it is very hard to go much deeper than 
that, sir.
    Senator Carper. I understand. As an old air intelligence 
officer in the Navy, I can appreciate what you are saying. Let 
me follow it up, though, with a related question. I think since 
September 11, 2001, we have heard on any number of occasions 
that a shortage of folks with key language skills has been a 
problem. I just want to ask what, if any, progress has been 
made in recruiting and retraining key intelligence and other 
personnel with some knowledge of Arabic or other languages that 
are useful in counterterrorism.
    Admiral Redd. I want to defer that one, if I could, to 
Director McConnell, since that is more along his line in terms 
of the training of the community. I will just say in general 
that not only in language but in analytic capability, writ 
large, obviously we have been growing a lot of folks. And as 
you will recall from your earlier days, if you want a petty 
officer with 10 years' experience, it takes 10 years. We have 
been trying to stuff 10 years into 4 or 5 years. But in the 
analytic community, we have had to bring an awful lot of folks 
on line.
    I will let Admiral McConnell talk about the language----
    Senator Carper. Admiral McConnell, are you willing to 
answer that question?
    Admiral McConnell. Yes, sir, I am.
    Senator Carper. Before you do, let me just add, maybe give 
you a second half to the question. Do you know of anything that 
we are doing to encourage more students to take up some of 
these languages early on?
    Admiral McConnell. Let me combine your questions, sir.
    Senator Carper. That would be great.
    Admiral McConnell. You asked specifically about Human 
Intelligence (HUMINT). We are on a path to double our HUMINT 
capability, so from September 11, 2001 until now, doubling the 
number of case officers and capability in the field.
    The second thing I would comment is focus----
    Senator Carper. Over what period of time? Any idea?
    Admiral McConnell. Since September 11, 2001, until in the 
current time frame, it will double. And as Admiral Redd 
mentioned, just adding a body is one thing, but adding a 
trained body who speaks a language is another thing. So with 
the language capability, significantly improved, not enough 
yet. One of the things that we have decided to do or that we 
are attempting to do is to recruit more first-generation 
Americans. They have never been specifically ruled out by 
either law or policy, but by practice and custom. So we are 
trying to change the cultural approach inside the community. So 
if we have a first-generation American who speaks a language, 
understands the culture of the area of concern, that we would, 
in fact, bring them into the community and make them a part of 
it. So there are a number of initiatives to----
    Senator Carper. Any luck on that?
    Admiral McConnell. Yes. We have had significant luck, and 
we have had a lot of focus on training in languages, like Urdu, 
Farsi, and Arabic and so on. So much better than we were. We 
still have some distance to go, but that is our objective, to 
keep us focused on this particular problem because it is the 
most significant threat we face.
    Senator Carper. Good. Thanks. Thanks for that report.
    At a hearing last week, Comptroller General David Walker--I 
call him ``General Walker''--of GAO reported that maritime 
security is one of the areas where the Department of Homeland 
Security has had some of its best successes in recent years, 
and this is probably more for you, Secretary Chertoff. 
Witnesses from the GAO and the Department both testified that 
some of the reasons for the success are the fact that Congress 
did get involved and that the Department was able to work with 
us to devote some significant time and resources to the effort. 
I would ask are there other areas where we can see some similar 
progress or the potential for progress where that kind of 
attention on our part, as well as yours, can leave the kind of 
success that we have enjoyed with maritime security, or maybe 
chemical security, for example.
    Secretary Chertoff. Well, there is, of course, as you know, 
Senator, one gap in the chemical security legislation that we 
had. Now, we are currently on the verge of issuing Appendix A, 
which is going to be very specific to people in the chemical 
sector about what is required from them in terms of self-
evaluation, what are considered to be the high-risk chemicals 
and the quantities at which they have to begin to submit 
themselves to regulation.
    Wastewater treatment plants and water treatment plants were 
exempted from this, so that is an area where we are currently 
internally looking at the question of what are our authorities, 
if we need to use authorities. I have certainly argued to 
people in that sector that they need to be mindful of the fact 
that chlorine is a very dangerous chemical and it can be used 
in a variety of nefarious ways. And, therefore, securing 
chlorine against theft is something that they have to make 
their business.
    Another area where we are, again, certainly looking at 
regulatory action, if not congressional action, is, as I said 
earlier, general aviation, in particular, private jets coming 
from Europe and Asia, where we want to make sure we have the 
ability to screen for weapons of mass destruction in the way we 
are doing with containers. And, finally, small boats is the 
area we are doing some work in now.
    Again, I believe we have ample authorities through the 
Coast Guard, but I also want to make sure Congress works with 
us, first to make sure we are adequately funded to do what we 
need to do; and, second, to make sure we do not have 
backsliding. Sometimes the industry pushes back when we try to 
put security measures in place, and it is important to make 
sure that if we do put measures in place with respect to small 
boats we do not wind up getting pushed backwards.
    Senator Carper. Okay.
    Admiral McConnell. Could I follow on, if I may?
    Senator Carper. Please, yes.
    Admiral McConnell. You asked me things you could focus on. 
We are about to start a debate this month on a very important 
piece. If you think about it at a summary level, a major piece 
in the intelligence community, what do we do? We take pictures. 
We have human-to-human interaction--HUMINT, you mentioned 
earlier. Or we listen to other people's communications. That 
other people's communications is called ``signals 
intelligence.'' We are going to debate that this month about 
whether to change or modify the law that was passed in August. 
It is very important that we retain that capability because it 
is a significant portion of what we are able to do with regard 
to foreign threats to the country.
    Senator Carper. I would just say in closing that we had a 
tough vote on the night of August 3, and some of us on our side 
voted with the majority on the other side. And I have 
personally taken--I would suggest to some of you I have taken a 
fair amount of flack from folks who are concerned about civil 
liberties, potential abuses to civil liberties. And I am 
encouraged to hear that the vote that we took was one that may 
have led to a better outcome in Germany than would otherwise 
have been the case.
    I would just urge us, I would urge my leadership and I 
would certainly urge you in the Administration to work with us 
to find--let's not wait until January or the end of the year. 
Work with us now in the weeks ahead to find the right common 
ground so that we could go after the bad guys, do the right job 
there, protect civil liberties. There is a way to do both.
    Admiral McConnell. There is a way to do both.
    Senator Carper. Thank you.
    Chairman Lieberman. Thanks, Senator Carper. For my part, 
may I say that any flack you receive on that issue is wholly 
undeserved. I really believe it. I think this is intercepting 
communications between those who are not in the United States, 
and if it hits an American, Admiral McConnell and his folks go 
to court. I just think it self-evidently covers--that is what 
we need to do to protect the American people and also protect 
their liberties.
    You have been very encouraging this morning, the four of 
you. I want to give you a small piece of encouragement. We 
promised that we would not keep you beyond 12:30, and we will 
not. So there will be a few other questioners, but we want you 
to be able to get back to your assigned responsibilities.
    Senator Collins and I have already had our time on the 
second round, so in order of original appearance, we go now to 
Senator Coleman and Senator Voinovich.
    Senator Coleman. Thank you, Mr. Chairman. Let me talk about 
the capacity to bring nuclear material into this country.
    Secretary Chertoff, you talked about the ability to screen 
perhaps 100 percent of the cargo coming into this country and 
the efforts you are doing on cargo before it comes into this 
country, which is really ultimately where we need to be. I 
mean, God forbid a device went off in the port of Long Beach or 
New York, something like that. My question, though, has to do 
with the ability to detect shielded special nuclear material in 
lead pipes. I asked the question before about the resources 
that you need to do what has to be done. There are some 
difficulties even with the systems we have with certain types 
of nuclear material. Can you talk a little bit about where we 
are at in being able to truly screen that kind of material? Are 
there research issues, financing? I just want to know what we 
are doing to make sure that you have the tools that you need to 
prevent nuclear material from getting into this country.
    Secretary Chertoff. The current operational technology, you 
are right--and I want to be careful how I say this--is much 
more challenged when it deals with heavily shielded material. 
It depends on what the nuclear material is. The greater the 
emitter, the harder it is to shield. But with respect to 
certain kinds of materials that can be used in a nuclear bomb, 
it is possible to shield it.
    Currently, therefore, the way we deal with shielding is we 
really want to have a combined system where we both passively 
test for emissions, but we also actively test to see if there 
is dense material in the container which could be suggestive of 
shielding. And the constraint we face, which we are tapping 
overseas by building an integrated system, is how do you make 
sure you can pass containers through passive and active at the 
same time.
    While we are building out a system to use both of those 
techniques, which is partly an issue of money, but it is also 
partly an issue of having foreign ports agree to do this and 
having them have a geographical footprint that allows us to do 
this, we are working on technology, which I cannot say is 
imminent, that would allow us to detect even rather heavily 
shielded material. But that is a bit of a ways off.
    I would also say I would not underestimate the importance 
of intelligence in helping us focus and target on those 
containers where there might be a higher risk, where we might 
actually want to open the container or at least pull it out and 
do a much more active interrogation.
    Senator Coleman. I would hope when we talk about 
intelligence that it is one thing to rely upon detectors, which 
may or may not do what they need to do; it is another thing to 
be able to lock down nuclear material wherever it is to make 
sure that it is not in the hands of the bad guys. If I may say, 
one of our challenges with Iran, trying to figure out where 
they are at. It is one thing if they are depending upon their 
own abilities to generate material that can be used for atomic 
weapons. It is another thing if there is material out there on 
the market that they can have access to.
    Admiral McConnell, in terms of that issue, of using 
intelligence to ensure that there is not nuclear material being 
bought or sold on the black market, where are we at with that?
    Admiral McConnell. I am very focused on that because we 
have information that al-Qaeda, as an example, has stated an 
intention to try to acquire nuclear material. So it is an area 
of intense focus. I wish I could be more optimistic to tell you 
that we have great confidence that we could always detect it. 
There are always potential work-arounds, but an area of focus, 
we have some sensors that would aid us in that capability, but 
it takes the entire panoply of intel resources to be able to do 
this. You have to penetrate targets. You have to have human 
agents. You have to be able to find places on a map, take the 
pictures, and also do the signals intelligence part. But it is 
an area of focus.
    Senator Coleman. Let me just shift gears. It has been 
interesting with this panel here. The latest Osama bin Laden 
tape, first, is that his beard? It is a different-looking guy. 
Can you give me an assessment of what that tape is all about? 
Is there a purpose to it? Do we expect--is it a signal? I am 
not sure what we can talk about here, but I would like to get a 
better understanding of what we know after viewing that tape.
    Admiral McConnell. So far we do not think there has been a 
signal. He has done this periodically, as has Zawahiri, and 
there has not been a correlation necessarily between one of 
these tapes or a public statement and a particular event.
    The big question in the community this morning is: Is that 
beard real? Because, as you know, just a few years ago, the 
last time he appeared, it was very different. So we do not know 
if it is dyed and trimmed or real, but that is one of the 
things we are looking at. But no specific message. It does 
reflect intent, and the big change for me as an intelligence 
analyst in the community, back in the Cold War it was very easy 
to do capability and always difficult to determine intent. In 
this situation, it is very difficult to capture the capability, 
a single human being in a given place, nuclear material, or 
whatever. So capability is the challenge, but intent is clear.
    Senator Coleman. Again, my time is very short. Just 
following up on that, much of the discussion was American 
politics. Do we have a sense of someone who we assume is in a 
cave somewhere, do we have any sense of his ability to be 
tracking what happens in daily American politics?
    Admiral McConnell. Sir, the Internet has revolutionized 
that process, so we have good evidence that the al-Qaeda 
leadership reads the press, particularly the editorials, and--
--
    Senator Coleman. And some of the things that are said in 
Congress.
    Admiral McConnell. And the Congress, no doubt. Every part 
of the debate, it is all watched very closely. And remember, 
there is an American in that group in Pakistan who is an 
adviser, I am sure. But there is a very close focus on this 
Nation because we are so open in what we do and what we say and 
where it might take someone.
    Senator Coleman. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Coleman. Senator 
Voinovich.
    Senator Voinovich. Director McConnell, Senator Akaka and I 
have held hearings on the security clearance process as part of 
our responsibility for the Oversight of Government Management 
Subcommittee. The security clearance system has been on GAO's 
high-risk list for quite some time. In the last hearing we had, 
Clay Johnson indicated that you were going to undertake a new 
system that would get the job done as part of your 100-day 
plan. Currently, I understand there is a wait time of 203 days 
for individuals awaiting clearances.
    What is the status of the new system? Have you discussed it 
at all with Comptroller General Walker, who will be determining 
whether or not our security clearance system should be removed 
from the high-risk list? What is your strategic plan? Are there 
metrics that will be used to judge whether or not the new 
system in place is effective?
    Admiral McConnell. Sir, first of all, it would be fair to 
say that there is a debate. Some would argue that we need to go 
faster and do better with the current system. General Jim 
Clapper and I, in DOD, representing all the intelligence 
capability in the Department of Defense, and me on the DNI 
side, we have agreed to run a pilot, and our fundamental 
premise is we want to re-engineer the process. You mentioned 
203 days. General Clapper and I believe we should be able to do 
that process in 30 days or less.
    Why do we believe that? We can look at the commercial 
models where they clear people very quickly, people that handle 
billions of dollars of transactions. What is the difference? If 
you can automate the process and clear people quickly, and then 
change the way we do business, that we monitor the life cycle 
of the employee, we can get to faster in the front and better 
protection in the back.
    I would submit, of the spies we know about, all but one or 
two of them did it for money. And of the spies that we know 
about, almost every one of them did not know they were a spy 
when they came in on the front. So the key is life-cycle 
monitoring. So we are trying to run the pilot to make it go 
much faster and hopefully be much more effective. We will know 
more about the end of this pilot in some months.
    Senator Voinovich. Will we know about it before this 
Administration leaves office?
    Admiral McConnell. Yes, sir. If we are going to have any 
impact at all on the system, we have to do it before this 
Administration----
    Senator Voinovich. How soon?
    Admiral McConnell. It is months, sir. It took us a period 
of time to agree to it. This was one of the issues, when I came 
back in the government, that was very important to me as having 
been on the outside struggling with it. So I made it a 
priority. We got the agreement from the Defense Department. We 
worked with Clay Johnson. We are running the pilot, and in some 
matter of months, we will be able to tell you if it is working 
or not.
    Senator Voinovich. I would suggest also that your people 
spend some time with the Government Accountability Office 
because during this Subcommittee's hearing last week, Mr. 
Schneider from DHS and Comptroller General David Walker spent 
about 20 percent of their time quibbling over the definition of 
what the metrics were to determine whether or not DHS had done 
what it was supposed to do.
    Is there anyone that is really working on this whole issue 
of winning the hearts and minds of Muslims here in the United 
States and around the world? This is not a new issue. And, 
quite frankly, I am not confident that anybody has really sat 
down to figure out a major effort in this area to win the 
hearts and minds of people not only here in the United States 
but around the world. Could you comment on that?
    Secretary Chertoff. Yes, let me venture into this. Although 
I do not think there is a single person, we do have a 
committee, and I think it is actually chaired by the head of 
our Civil Rights and Civil Liberties Office, that looks at that 
issue in the United States. I think the Bureau and the 
Department of Justice are represented on it. We do not deal 
with the overseas element. We deal with the domestic element of 
it. And a lot of it is outreach, and it is from the top level 
down to the regional and local offices to get people from the 
government out into the community trying to recruit individuals 
to come into government service. I do not mean as informants. I 
mean to occupy positions in government service so that the 
community feels they are part of the process of homeland 
security and law enforcement. Part of it is giving notice to 
community members when something is happening in the world so 
they can reassure the community. And some of it is just a lot 
of outreach to get the community engaged in the process of 
counter-radicalization.
    This is all supported by research that we do. We do a lot 
of research through our Intelligence and Analysis Directorate 
looking at studies. Some of them are academic studies; some of 
them are studies we get from overseas as to what causes 
radicalization. I think the FBI does a lot of that as well, and 
they tend to be maybe a little more focused on individual 
cases. We tend to be maybe a little bit more general.
    So we do have a very focused strategy on this issue. I 
should say--and I have to be a little careful here because the 
First Amendment does limit us to some extent in getting into 
the area of what I would call too upfront efforts to persuade 
or convince. I think we generally feel, at least in our 
Department, that we are best served by getting the community 
itself to get out there and----
    Senator Voinovich. What would give me comfort is to see how 
these efforts are linked. I recently met with Imam Abdul Rauf, 
who has organized a forum of Muslim religious scholars to work 
on connecting democracy and the U.S. Constitution to the 
foundations of Islam to show that they are compatible.
    I think that much greater effort has got to be made in this 
area. We are on the defense, and we are trying to secure the 
country. But I think that unless we recognize the challenge 
that we have got on this other side, our success will be 
limited. We need to have an offense here, and I am not sure we 
have one.
    Admiral Redd. Senator, if I could comment on that. As I 
mentioned earlier, we have built this thing called the National 
Implementation Plan, which is the overall blueprint. One of the 
four pillars of that is exactly that--countering violent 
Islamic extremism. And it goes through and lays out a number of 
tasks, assigns those tasks to different Cabinet officers. You 
have heard about the domestic part of it, and you are correct, 
the State Department has a lead for the overseas piece of it. 
And we are starting up--Karen Hughes has an operation, as you 
know, the Counterterrorism Communications Center, which is 
designed to be on a very tactical basis to respond to things 
that happen around the world.
    But clearly this is tough. This is new for us. Some people 
try to compare it to the public diplomacy thing we did during 
the Cold War. But even that is significantly different because 
we were basically talking to Western or similar cultures in 
those days.
    But it is not just an American issue, obviously. As you 
mentioned, it is going to take people who have credibility in 
the area, whether it is here in the United States or overseas. 
I would say that a lot of foreign governments have obviously 
woken up to this and are becoming more involved. But it is 
going to be a long--it is going to be a generation----
    Senator Voinovich. I have taken enough time, but all I can 
tell you is from my perspective how well we do in that regard 
will have a major impact on how long this war against Islamic 
extremist religious fanatics goes on. I really bring to all of 
your attention that something should be done to pull everybody 
together and figure out a master plan on how this thing is 
going to work.
    Admiral Redd. I could not agree with you more, sir.
    Chairman Lieberman. Thanks, Senator Voinovich.
    Senator Akaka, we will have a last round, and then Senator 
Collins did not use all her time, so I am going to have her ask 
one last question.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Admiral McConnell, more than a year ago, we learned that 
the CIA had closed the bin Laden issue station, a unit that had 
focused exclusively on finding Osama bin Laden and his top 
lieutenants. At that time the CIA said that it did so partly 
because al-Qaeda had changed form, evolving from a hierarchical 
organization with bin Laden at the helm to one characterized by 
a collection of splinter cells. However, both were testimony 
that the July 2007 NIE stated that bin Laden and his deputy 
have been able to regenerate al-Qaeda and key elements of its 
homeland attack capability.
    Given this assessment, do you believe that a unit dedicated 
to finding, capturing, or killing Osama bin Laden and his top 
officials should be re-established?
    Admiral McConnell. Sir, it is established. I would say it 
is probably a matter of semantics, but we have such a unit. 
Osama bin Laden and Zawahiri are our No. 1 and No. 2 priority, 
very strong and significant focus. And so we are pursuing it 
with significant resources.
    Senator Akaka. Admiral, if bin Laden has reconstituted the 
al-Qaeda organization so that it looks similar to its original 
pre-September 11, 2001 form, then do you believe that finding 
him should be the top priority?
    Admiral McConnell. Top priority; yes, sir. And I would add 
another dimension. You mentioned splinter groups a moment ago. 
I would describe it a little differently. There are extremists 
in virtually any country. What al-Qaeda has been successful in 
doing is linking them. So now if you start across Northern 
Africa, in Algeria, Tunisia, Libya, Egypt, Lebanon, all the way 
across, there are groups now that affiliate with and some even 
change their names to be al-Qaeda. So it almost takes on the 
connotation of a franchise.
    So I think the reasoning maybe a year ago was splintering, 
but the fact that they have sanctuary in that tribal area 
between Afghanistan and Pakistan has allowed them to adapt and 
morph. With the sanctuary and committed leadership, they have 
rebuilt the middle tier. What they do not have is the vast 
numbers of recruits to carry out the acts they would like to 
perpetrate. So that is where we have our focus, is to try to 
cut off the head of the snake.
    Senator Akaka. Admiral Redd, in early 2004, then-CIA 
Director George Tenet said that al-Qaeda's leadership was 
seriously damaged and had continued to lose operational safe 
havens. Today we have a different picture of al-Qaeda, one in 
which the organization has become resurgent and is rebuilding.
    What in your opinion has changed? And why hasn't the United 
States been more successful in heading off such a resurgence?
    Admiral Redd. I think if you look back, Senator, at the 
history from September 11, 2001, it has been a series--as all 
warfare, if you do not mind me using the analogy--of puts and 
takes, or pressure and response. And I would say the single 
most critical factor over the last year, year and a half, has 
been the resurgence of that safe haven in the tribal areas of 
Pakistan.
    Senator Akaka. Do you believe that, as currently 
configured, the Executive Branch agencies are well placed to 
help reverse that tide?
    Admiral Redd. I think, sir, the whole thrust of our 
testimony has been that the agencies are working together in 
ways that we have never worked together before, whether it is 
across attacking terrorists or protecting and defending the 
homeland. But the short answer is you never stop on that, and 
you keep moving, you keep trying, and you keep pushing. And 
that is clearly one of our highest priorities.
    Senator Akaka. Admiral McConnell and Admiral Redd, the July 
report issued by the National Counterterrorism Center stated 
that the key to al-Qaeda's resurgence has been the use of 
ungoverned spaces in Pakistan and, in particular, areas along 
the Pakistan-Afghan border. Yet I understand that Pakistan 
restricts the deployment of American troops in these areas in 
hot pursuit of those terrorists' networks.
    As long as these safe havens exist, what is there to 
prevent the continued resurgence of al-Qaeda? Admiral 
McConnell.
    Admiral McConnell. If the safe havens continue to exist, we 
will continue to have this problem. About a year ago, the 
leadership in Pakistan made a decision as a way to address the 
problem is to form an alliance or a peace treaty, if you will, 
with the tribal leaders in this area. Remember, this area has 
never been conquered by anyone, not even Pakistan--never been 
controlled by Pakistan. It is a separate enclave in their 
constitution, so it is an independent region in that border 
area.
    So the leadership in Pakistan decided they would make an 
accommodation with the leadership to force the foreigners--to 
be expelled. That did not work. We counseled against it. It did 
not work.
    Now, what has changed since that time? President Musharraf 
has moved two additional divisions into the area, is applying 
additional pressure. We are cooperating with the Pakistanis, 
providing information, intelligence. We are working it from the 
Afghan side of the border, working with Special Operations 
Forces and so on. So intense focus, but as of this point in 
time, we have not been able to eliminate it. But it is our No. 
1 priority.
    Senator Akaka. Would you comment, Admiral Redd.
    Admiral Redd. I would just agree with Director McConnell. I 
mean, we clearly understand the high priority of this. The 
cooperation out there is significant. I think it is fair to 
note, too, that the Pakistanis themselves are also victims of 
al-Qaeda's violence. It is not just the United States. But it 
is a longstanding issue, and it is one which has a lot of 
policy dimensions to it. It is being worked very hard.
    Senator Akaka. Thank you for your responses. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    We have reached 12:30, but Senator Collins did not use her 
whole time, and Senator Carper, who is a very effective 
advocate, has asked to ask one more question. If any of you 
have an urgent need to depart, we will understand. If not, two 
more questions.
    Senator Collins.
    Senator Collins. Thank you. That is, we will understand if 
it is after our questions.
    This Committee has worked diligently to try to identify 
shortcomings and gaps in the legal authority that you have as 
we try to fight this war against terrorism. Last year, for 
example, Secretary Chertoff, you told us that we needed 
authority in the area of chemical security, and we passed 
legislation giving you that. More recently, Admiral, you came 
to us on the FISA issue.
    I would like to ask each of you to identify any legislative 
reforms or authority that you need to more effectively do your 
job as we battle terrorism. Secretary Chertoff, we will start 
with you, and we will just go down the panel.
    Secretary Chertoff. I did mention the issue of wastewater 
and water treatment, and I think we are contemplating what we 
might do to address that issue and whether we ought to make a 
suggestion to Congress.
    If I might, I would like to request the opportunity to 
actually think about that and come back with a little bit more 
of a comprehensive answer than I give just off the table.
    Senator Collins. Thank you. Admiral Redd.
    Admiral McConnell. Like Secretary Chertoff, I need to give 
you a more deliberative answer, but I have been back only a few 
months, as you are aware, and the title is Director of National 
Intelligence. I think ``Director'' may be a little bit of a 
misnomer. I am more of a coordinator. So when I want to make a 
hard decision, it is a little bit like this body. As opposed to 
deciding, you get to engage in dialogue and debate and so on. 
It was made reference earlier that it is interpersonal skills. 
Well, mine have been tested quite a bit to try to get hard 
decisions made.
    So at some point, I will formulate some recommendations 
about do we need to make some adjustments to how we are 
organized. We did not create a Department of Intelligence. We 
created a Director of National Intelligence who has a 
responsibility of coordinating a community of 15 of 16 agencies 
who work for another Cabinet officer. So there is a challenge 
or two embedded in that.
    Senator Collins. Thank you. Admiral Redd.
    Admiral Redd. As you know, I wear the two hats on the 
intelligence sides. Obviously, in fact, I am actually part of 
the DNI, and the DNI has actually used his authorities to help 
us out in some cases. So I think I would certainly identify 
with everything Admiral McConnell said.
    I think there is a question which is not now but is 
probably a year or so down the road, on the other race to 
strategic operational planning. As you know, when the 9/11 
Commission came out, they had in mind a much more, shall we 
say, aggressive or directive view of that. I do not think we 
are far enough down the road to know whether that is desirable 
or even doable. We are working together. But I think that is 
something that in a couple of years the Congress may want to 
come back and look at.
    Senator Collins. Thank you. Director Mueller.
    Mr. Mueller. One of the areas we are concerned about and 
have been for some time is, first of all, the lone wolf actor 
who is not tied in with any particular group overseas, and we 
addressed that in legislation a year or so ago. But as you have 
self-radicalization growing and radicalization in the United 
States, where it does not have any foreign component, we 
operate under Title III, the criminal side of the house. And 
over a period of time, as technology has improved--and the 
statutes focus on facilities, a particular facility as opposed 
to the target. One of the things I would like an opportunity to 
get back to you on is the possibility of making modifications 
to make it easier with appropriate safeguards to do 
interceptions of those individuals who might be self-
radicalized and intent on undertaking terrorist attacks as 
opposed to other criminal activities within the United States, 
without any foreign nexus.
    Senator Collins. Thank you. And let me just conclude by 
thanking you all for your extraordinary service. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Those are 
important answers. Senator Carper.
    Senator Carper. I would second that closing comment from 
Senator Collins.
    Secretary Chertoff, I am going to telegraph my picture and 
let you think about this while I make a comment or two. It is 
rare that you come before us that I do not ask you about rail 
security and transit security, and that will be my question, to 
ask you for an update. We have talked here today a little bit 
about maritime security and chemical security, but I want, 
before we leave, for you to give us a bit of an update on how 
we are doing with respect to security for people who ride 
trains and people who take transit, especially rail transit.
    I want to go back to Senator Akaka's questioning of you, 
Admiral McConnell, and he focused a good deal on Osama bin 
Laden, and you mentioned--I think what you said is, ``Our focus 
is to cut off the head of the snake.'' I urge you to maintain 
that focus.
    Secretary Chertoff, your Department is going through a 
rulemaking with respect to potentially establishing reporting 
requirements for those who have significant quantities of 
propane on their properties. You probably heard a little bit 
about this. On the Delmarva Peninsula, we have hundreds of 
chickens for every person who lives there. There are 300 
chickens for every person who lives in Delaware. We have a lot 
of chicken farms, and we have tens of thousands of them around 
the country, and your agency has been intent on trying to 
establish some kind of reporting requirement for chicken 
farmers who have significant quantities of propane.
    I think we are in the process of trying to infuse some 
common sense into that argument. I would say good and we look 
forward to the final outcome.
    One of our chicken farmers on the Delmarva Peninsula said, 
``The worst thing that could happen if they blow up my propane 
in my chicken house is we end up with barbecued chicken.'' So 
he did not think it was all that bad. But I would just ask that 
we focus more on where the real threat lies. I do not think 
that is where it lies.
    Your name has been in the news as a potential Attorney 
General. I do not have any question that you would be a very 
fine Attorney General. I heard last week that you had asked not 
to be considered, and I think we need in your Department 
continuity. Not worst things that could happen, but one of the 
not so positive things that could happen would be to just add 
to that turmoil, so I applaud your decision. I hope the 
President was listening.
    Here is your opportunity to respond to my question: How are 
we doing on transit security, rail transit security in 
particular?
    Secretary Chertoff. First, just on the issue of propane, 
let me make clear that there was a preliminary rule that was 
put out. It is put out precisely for the reason that we do want 
to get comments back, and it is not uncommon and it is pretty 
easy to anticipate that we are going to take those comments 
into effect.
    It is going to be a line-drawing issue. There is going to 
be an amount of propane that is large enough and close enough 
to a major population area that we will have to regulate it. 
But we really do not want to regulate chicken farmers. We are 
not worried about barbecued chicken.
    With respect to rail security, as you know, Senator, we put 
out not only a round of grants earlier this year, but then a 
supplemental round. So we have got several hundred million 
dollars out there, and we would be very focused on a risk-based 
approach in which we look at those elements of the rail system 
that are the most vulnerable. If we are talking about passenger 
rail, that tends to be a highly populated mass transit, 
particularly where you are dealing with track that is 
underground or underwater. And, frankly, that is where we are 
putting most of our money and most of our effort.
    At the same time we are doing a couple of other things. We 
are working to increase the number of what we call VIPR Teams. 
These are combined teams of TSA personnel, and now we are 
adding in some Coast Guard and Custom Border Patrol personnel 
that we surge into a train station or we went onto the Seattle 
ferries last month, with canines, with handheld devices. They 
are not meant to be steady state, but they are meant to be 
random surge operations, similar to what the New York Police 
Department does where every week or so they put a whole bunch 
of police cars out and they surge into an area and in a 
counterterror operation. So we are proceeding with that, too.
    The third thing is we are looking at different kinds of 
systems that would be used to potentially detect explosives 
without putting into place in train stations what we have at 
airports, which would not work architecturally. That is a 
technological challenge. I promised Admiral Cohen I was going 
to use this word in a hearing, and I am now going to use it. 
Muon technology, which involves the subatomic particles, is 
apparently a promising technology but some distance off; that 
if, in fact, it is capable of being implemented, would allow us 
to detect in a stand-off way explosives in a confined area, 
like a train station or something.
    So we are proceeding on all of those tracks, and it is a 
very high priority for us.
    Senator Carper. Mr. Chairman, thank you for giving me that 
opportunity. One last quick thing I would say is Senator 
Voinovich was talking about how do we defuse some of the hatred 
and animosity toward our country, and he, I thought mentioned--
in the back-and-forth some good ideas were discussed. I would 
suggest that one of the things that needs to be done is for a 
real serious effort to be made in support of what is going on 
in the dialogue between the Israelis and the Palestinians on 
the West Bank. That by itself is not going to solve this 
problem, but to the extent that the Palestinians could end up 
with a homeland of their own and the Israelis could end up with 
peace and secure borders, that would sure help.
    Chairman Lieberman. Thanks very much, Senator Carper.
    Thanks to the four of you. I must say, Senator Collins and 
I just said before she had to go that while the first part of 
what we asked you to do today, which is to assess the current 
threat environment, obviously your assessment is serious, it is 
sobering. This is an alarming and persistent threat 
environment. But the second part, which is to give us a report 
on the status of institutional reform to deal with the threat, 
has been, in my opinion, greatly encouraging, understanding 
that we all know that we have got a lot more to do.
    I would add that the four of you each bring tremendous 
experience and talent to this assignment. You are impressive in 
your individual capacities, and you give the definite 
impression that you are working well together as a team. And I 
will note with some particular appreciation in this capital 
city that you seem not to let your egos get in the way of 
carrying out your assigned responsibilities to protect our 
homeland. So we thank you for all that, with the understanding 
that we have got a lot more to do. We look forward to doing it 
together to protect our country and its people.
    The record of the hearing will remain open for 15 more days 
for additional questions and statements. I thank you all again. 
The hearing is adjourned.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 38842.001

[GRAPHIC] [TIFF OMITTED] 38842.002

[GRAPHIC] [TIFF OMITTED] 38842.003

[GRAPHIC] [TIFF OMITTED] 38842.004

[GRAPHIC] [TIFF OMITTED] 38842.005

[GRAPHIC] [TIFF OMITTED] 38842.006

[GRAPHIC] [TIFF OMITTED] 38842.007

[GRAPHIC] [TIFF OMITTED] 38842.008

[GRAPHIC] [TIFF OMITTED] 38842.009

[GRAPHIC] [TIFF OMITTED] 38842.010

[GRAPHIC] [TIFF OMITTED] 38842.011

[GRAPHIC] [TIFF OMITTED] 38842.012

[GRAPHIC] [TIFF OMITTED] 38842.013

[GRAPHIC] [TIFF OMITTED] 38842.014

[GRAPHIC] [TIFF OMITTED] 38842.015

[GRAPHIC] [TIFF OMITTED] 38842.016

[GRAPHIC] [TIFF OMITTED] 38842.017

[GRAPHIC] [TIFF OMITTED] 38842.018

[GRAPHIC] [TIFF OMITTED] 38842.019

[GRAPHIC] [TIFF OMITTED] 38842.020

[GRAPHIC] [TIFF OMITTED] 38842.021

[GRAPHIC] [TIFF OMITTED] 38842.022

[GRAPHIC] [TIFF OMITTED] 38842.023

[GRAPHIC] [TIFF OMITTED] 38842.024

[GRAPHIC] [TIFF OMITTED] 38842.025

[GRAPHIC] [TIFF OMITTED] 38842.026

[GRAPHIC] [TIFF OMITTED] 38842.027

[GRAPHIC] [TIFF OMITTED] 38842.028

[GRAPHIC] [TIFF OMITTED] 38842.029

[GRAPHIC] [TIFF OMITTED] 38842.030

[GRAPHIC] [TIFF OMITTED] 38842.031

[GRAPHIC] [TIFF OMITTED] 38842.032

[GRAPHIC] [TIFF OMITTED] 38842.033

[GRAPHIC] [TIFF OMITTED] 38842.034

[GRAPHIC] [TIFF OMITTED] 38842.035

[GRAPHIC] [TIFF OMITTED] 38842.036

[GRAPHIC] [TIFF OMITTED] 38842.037

[GRAPHIC] [TIFF OMITTED] 38842.038

[GRAPHIC] [TIFF OMITTED] 38842.039

[GRAPHIC] [TIFF OMITTED] 38842.040

[GRAPHIC] [TIFF OMITTED] 38842.041

[GRAPHIC] [TIFF OMITTED] 38842.042

[GRAPHIC] [TIFF OMITTED] 38842.043

[GRAPHIC] [TIFF OMITTED] 38842.044

[GRAPHIC] [TIFF OMITTED] 38842.045

[GRAPHIC] [TIFF OMITTED] 38842.046

[GRAPHIC] [TIFF OMITTED] 38842.047

[GRAPHIC] [TIFF OMITTED] 38842.048

[GRAPHIC] [TIFF OMITTED] 38842.049

[GRAPHIC] [TIFF OMITTED] 38842.050

[GRAPHIC] [TIFF OMITTED] 38842.051

[GRAPHIC] [TIFF OMITTED] 38842.052

[GRAPHIC] [TIFF OMITTED] 38842.053

[GRAPHIC] [TIFF OMITTED] 38842.054

[GRAPHIC] [TIFF OMITTED] 38842.055

[GRAPHIC] [TIFF OMITTED] 38842.056

[GRAPHIC] [TIFF OMITTED] 38842.057

[GRAPHIC] [TIFF OMITTED] 38842.058

[GRAPHIC] [TIFF OMITTED] 38842.059

[GRAPHIC] [TIFF OMITTED] 38842.060

[GRAPHIC] [TIFF OMITTED] 38842.061

[GRAPHIC] [TIFF OMITTED] 38842.062

[GRAPHIC] [TIFF OMITTED] 38842.063

[GRAPHIC] [TIFF OMITTED] 38842.064

[GRAPHIC] [TIFF OMITTED] 38842.065

[GRAPHIC] [TIFF OMITTED] 38842.066

[GRAPHIC] [TIFF OMITTED] 38842.067

[GRAPHIC] [TIFF OMITTED] 38842.068

[GRAPHIC] [TIFF OMITTED] 38842.069

[GRAPHIC] [TIFF OMITTED] 38842.070

[GRAPHIC] [TIFF OMITTED] 38842.071

[GRAPHIC] [TIFF OMITTED] 38842.072

[GRAPHIC] [TIFF OMITTED] 38842.073

[GRAPHIC] [TIFF OMITTED] 38842.074

[GRAPHIC] [TIFF OMITTED] 38842.075

[GRAPHIC] [TIFF OMITTED] 38842.076

[GRAPHIC] [TIFF OMITTED] 38842.077

[GRAPHIC] [TIFF OMITTED] 38842.078

[GRAPHIC] [TIFF OMITTED] 38842.079

[GRAPHIC] [TIFF OMITTED] 38842.080

[GRAPHIC] [TIFF OMITTED] 38842.081

[GRAPHIC] [TIFF OMITTED] 38842.082

[GRAPHIC] [TIFF OMITTED] 38842.083

[GRAPHIC] [TIFF OMITTED] 38842.084

[GRAPHIC] [TIFF OMITTED] 38842.085

[GRAPHIC] [TIFF OMITTED] 38842.086

[GRAPHIC] [TIFF OMITTED] 38842.087

[GRAPHIC] [TIFF OMITTED] 38842.088

[GRAPHIC] [TIFF OMITTED] 38842.089

[GRAPHIC] [TIFF OMITTED] 38842.090

[GRAPHIC] [TIFF OMITTED] 38842.091

[GRAPHIC] [TIFF OMITTED] 38842.092

[GRAPHIC] [TIFF OMITTED] 38842.093

[GRAPHIC] [TIFF OMITTED] 38842.094

[GRAPHIC] [TIFF OMITTED] 38842.095

[GRAPHIC] [TIFF OMITTED] 38842.096

[GRAPHIC] [TIFF OMITTED] 38842.097

[GRAPHIC] [TIFF OMITTED] 38842.098

[GRAPHIC] [TIFF OMITTED] 38842.099

[GRAPHIC] [TIFF OMITTED] 38842.100

[GRAPHIC] [TIFF OMITTED] 38842.101

[GRAPHIC] [TIFF OMITTED] 38842.102

[GRAPHIC] [TIFF OMITTED] 38842.103

[GRAPHIC] [TIFF OMITTED] 38842.104

                                 <all>

</pre></body></html>
